                   U.S. Department of Agriculture

                      Office of Inspector General
                                 Northeast Region




          Audit Report

Issues Impacting the Development of
 Risk-Based Inspection at Meat and
 Poultry Processing Establishments




                         Report No. 24601-07-Hy
                                 December 2007
                   UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                      Washington, D.C. 20250




December 4, 2007


REPLY TO
ATTN OF:      24601-07-Hy


TO:           Alfred V. Almanza
              Administrator
              Food Safety and Inspection Service

ATTN:         William C. Smith
              Assistant Administrator
              Office of Program Evaluation, Enforcement and Review

FROM:         Robert W. Young /s/
              Assistant Inspector General
                for Audit

SUBJECT:      Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry
              Processing Establishments


This report presents the results of our audit concerning the issues impacting the development of
risk-based inspection at meat and poultry processing establishments. Your response to the
official draft, dated November 26, 2007, is included as Exhibit I and the supplemental response
for seven of the report’s recommendations, dated November 30, 2007, is included as Exhibit J.
Excerpts of your response and the Office of Inspector General’s position are incorporated into
the Findings and Recommendations section of the report. Based on your responses, we were able
to reach management decision on all of the report’s 35 recommendations. Please follow your
agency’s internal procedures in forwarding documentation for final action to the Office of the
Chief Financial Officer.

We appreciate the courtesies and cooperation extended to us by members of your staff during
this audit.
Executive Summary
Issues Impacting the Development of Risk-Based Inspection at Meat and Poultry
Processing Establishments (Audit Report No. 24601-07-Hy)

Results in Brief                 In 2004, the U.S. Department of Agriculture (USDA), Food Safety and
                                 Inspection Service (FSIS), began the process of developing a risk-based
                                 inspection program that would assign more inspection resources at processing
                                 establishments that posed a greater food safety risk. FSIS has invested
                                 considerable time and effort into building a foundation for implementing a
                                 risk-based inspection program and has sought input from a number of
                                 external stakeholders 1 through public meetings and expert elicitations 2 as it
                                 developed and refined its conceptual model for risk-based inspection. FSIS
                                 recognized that development of a risk-based inspection model would be a
                                 continuous process as it learned more about the risk associated with particular
                                 products and the hazards associated with food processing operations, as well
                                 as predictive data indicators for risk.

                                 In February 2007, FSIS announced its plans to implement a pilot risk-based
                                 inspection program because the agency believed it had “sound,
                                 comprehensive, and reliable” data and that “real and immediate”
                                 improvements could be made to the effectiveness of inspection operations.
                                 Congress and other stakeholders became concerned that FSIS was beginning
                                 to implement risk-based inspection before it had corrected deficiencies
                                 reported in prior USDA Office of Inspector General (OIG) audits and that
                                 known limitations and concerns with its methodology for determining risk
                                 had not been addressed. The Committees on Appropriations of the U.S.
                                 House of Representatives and the U.S. Senate were concerned that food
                                 safety may be compromised if risk-based inspection proceeded at that time.
                                 Therefore, they included language in Public Law 110-028, signed
                                 May 25, 2007, that prevented FSIS from using funds to implement risk-based
                                 inspection in any location until OIG studied the program, including the data
                                 in support of its development and design, and FSIS addressed and resolved
                                 the issues identified.

                                 When FSIS proposed to proceed with risk-based inspection in February 2007,
                                 it based risk assessments of processing establishments predominately on data
                                 contained in their various information systems. 3 Because these data were


1
    Stakeholders include representatives from such entities as States, academia, consumers, interest groups, industry, Federal
    agencies and foreign countries.
2
    An expert elicitation pulls together a panel of experts, carefully assesses the uncertainties in each of their views, and then
    mathematically combines their risk estimates along with the accompanying uncertainties.
3
    See the Background section in this report for a description of the risk-based inspection methodology, as originally
    envisioned by FSIS.
USDA/OIG-A/24601-07-Hy                                                                                                    Page i
                               limited, 4 OIG’s audit was designed to determine whether FSIS currently has
                               the infrastructure and management controls in place to support a
                               comprehensive, timely, and reliable data-driven risk-based inspection
                               program. Based on our audit results, we question whether FSIS has the
                               systems in place, at this time, to provide reasonable assurance that risk can be
                               timely or fully assessed, especially since FSIS lacks current, comprehensive
                               assessments of establishments’ food safety systems.

                               We could not assess FSIS’ plan for evaluating the risk-based inspection pilot
                               project, as requested by the Committees, because an evaluation plan had not
                               been developed at the time of our review. FSIS ceased its efforts to develop
                               an evaluation plan when the legislation was signed into law in May 2007.

                               In prior audits, OIG had reported concerns with FSIS’ information
                               technology (IT) systems and other processes that collect, process, and
                               analyze data; we concluded in these audits that FSIS could not, on an
                               ongoing basis, timely identify and react to indicators of problems that could
                               impact food safety. Prior audits also identified the lack of basic building
                               blocks and adequate management controls to provide proper oversight and
                               management of inspection operations. In those audits, we recommended that
                               FSIS consider scientific, risk-based approaches (through trend analysis, base-
                               line studies, etc.) for inspection and pathogen testing activities. In addition to
                               evaluating FSIS’ infrastructure and management controls, this report presents
                               an assessment of FSIS’ progress in implementing agreed-to corrective actions
                               in those areas that would have a direct impact on FSIS’ ability to effectively
                               implement a risk-based inspection program.

                               Throughout this review, we discussed concerns with and provided our
                               recommendations to FSIS so that the agency could immediately initiate
                               actions to address weaknesses we identified in the development and design of
                               the risk-based inspection program. The concerns related to FSIS’
                               (1) assessments of establishments’ food safety systems, (2) security over IT
                               resources and application controls, (3) data management infrastructure and
                               analyses, and (4) management control structure. FSIS provided responses to
                               our recommendations, which are included as Exhibits C through G. This
                               report summarizes the findings previously reported to FSIS and presents a
                               number of observations and concerns that FSIS should consider and address
                               as it moves forward with the development of a risk-based inspection
                               program.



4
    Our analysis of FSIS’ data to support the development of risk-based inspection and establishments’ risk rankings was
    limited to data covering plant operations from October 1, 2005 through September 30, 2006. According to FSIS officials,
    the agency calculated risk rankings only once and did not update its assessments since the risk-based inspection program
    was deferred due to Public Law 110-028. Therefore, OIG was unable to determine the reasonableness and relevance of
    FSIS data to support the design of risk-based inspection, as requested.
USDA/OIG-A/24601-07-Hy                                                                                             Page ii
                                 FSIS’ Approach to the Design of Risk-Based Inspection

                                 In our review, we found FSIS planned to begin implementation of risk-based
                                 inspection before completing an assessment of, and determining the data
                                 needed for, a comprehensive risk determination at processing establishments.
                                 FSIS planned to implement an initial phase of risk-based inspection using
                                 available data, and to continue collecting and refining data and data needs in
                                 subsequent phases. FSIS has also accelerated implementation of initiatives
                                 and improvements to its sampling methodology to respond to concerns
                                 related to two large recalls of ground beef product potentially contaminated
                                 with Escherichia coli (E. coli) O157:H7 (see Section 1 of this report).

                                 •   In the initial risk-based inspection algorithm, 5 FSIS did not incorporate
                                     the results of the agency’s assessments of an establishment’s food safety
                                     systems (i.e., food safety assessments). FSIS recognized that these
                                     assessments are the agency’s best evidence of the establishment’s ability
                                     to control risk. However, FSIS currently reports food safety
                                     assessment-related data in an inconsistent, text format that cannot be
                                     easily used to estimate risk. During our audit, FSIS developed and
                                     initiated an action plan for enhancing food safety assessment-related data.

                                 •   FSIS chose to move forward with a pilot risk-based inspection program
                                     recognizing that there were limitations and uncertainties that impact the
                                     interpretation and use of the available data. During the course of our
                                     audit, FSIS began a critical in-depth examination of the data used as the
                                     components of its risk-based inspection algorithm with a view to refine
                                     and expand the data used in future versions of risk-based inspection. FSIS
                                     expects to finalize the results of this review by March 2008. In addition to
                                     these limitations and uncertainties, we identified weaknesses in the design
                                     of the risk-based inspection algorithm. For example, FSIS did not conduct
                                     analyses to support that the window of data 6 used to determine how well
                                     an establishment controlled risk was appropriate.

                                 •   In June 2007, FSIS identified an increased number of E. coli O157:H7
                                     positive tests in beef, as well as a larger number of recalls and illnesses
                                     caused by this pathogen than in recent years. In October 2007, FSIS
                                     accelerated implementation of initiatives and improvements to its
                                     sampling methodology scheduled for Spring 2008 to respond to concerns
                                     related to two large recalls of ground beef product potentially adulterated
                                     (i.e., contaminated) with E. coli O157:H7. At that time, FSIS also
                                     accelerated its plans to review the control of this pathogen by beef
                                     suppliers and processors. Pathogen test results are a critical component of
                                     FSIS’ risk-based inspection model.

5
    A precise rule (or set of rules) specifying how to solve some problem.
6
    A window of data is a baseline time period for data collection.
USDA/OIG-A/24601-07-Hy                                                                                   Page iii
                               FSIS’ Infrastructure to Control and Oversee Regulated Activities

                               Currently, FSIS does not have adequate management control processes or an
                               integrated IT system in place to support a timely, reliable risk-based
                               inspection program. Building a solid foundation for shifting to a risk-based
                               environment that focuses inspection resources on improving FSIS’ ability to
                               protect public health should be a process that uses (1) science and statistical
                               analysis based on high-quality, relevant data that focus on risk analysis and
                               prevention, (2) effective integration of FSIS’ data management systems, and
                               (3) strong IT and management controls over inspection activities (see Section
                               2 of this report).

                               •   In response to two prior OIG reports, FSIS agreed to strengthen security
                                   over IT resources and application controls. Our current work confirmed
                                   that vulnerabilities continue to expose FSIS systems to unnecessary risks
                                   and that access (physical and logical) and application controls need
                                   improvement. FSIS provided detailed responses to address these
                                   weaknesses (see Exhibits D and E). Instituting the appropriate oversight
                                   and control in these areas is critical to developing and implementing a
                                   reliable, data-driven risk-based inspection program.

                               •   Since June 2000, we have recommended that FSIS implement a system of
                                   oversight for Hazard Analysis and Critical Control Point (HACCP) plans7
                                   that establishments develop. In response, FSIS initiated the use of food
                                   safety assessments to evaluate these controls. Our current work
                                   confirmed, however, that FSIS had not completed food safety
                                   assessments at all processing establishments and did not have procedures
                                   for prioritizing and scheduling assessments or following up on assessment
                                   findings. Food safety assessments are a fundamental building block for
                                   assessing establishment risk.

                               •   FSIS does not currently have a comprehensive, agency-wide data analysis
                                   and distribution system in place to inform decision makers of all the
                                   relevant food safety and food defense issues. Only in the current year has
                                   FSIS begun initial steps to specifically define and implement data
                                   management controls to ensure: (1) necessary types of information are
                                   collected, (2) required standard reports are produced, (3) relevant
                                   analyses are performed and fully used by all program areas and district
                                   offices, and (4) corrective actions are taken when problems are identified.
                                   During our audit, FSIS initiated actions to strengthen data management
                                   controls so that the agency will be in a better position to provide all

7
    In 2000, FSIS completed implementation of the Pathogen Reduction and HACCP system, which required meat and
    poultry processing establishments to target and reduce harmful bacteria in their products. Establishments must develop
    and implement HACCP plans that systematically address all significant hazards associated with its products.
USDA/OIG-A/24601-07-Hy                                                                                           Page iv
                                  management levels with information to identify and correct food safety
                                  concerns.

                             •    We previously recommended that FSIS establish a management control
                                  process for accumulating and analyzing food safety data and for
                                  strengthening its monitoring of inspection activities. FSIS responded by
                                  implementing the In-Plant Performance (IPPS) and AssuranceNet
                                  systems 8 as a means of providing management oversight of public health
                                  activities of FSIS inspection personnel. These systems are important
                                  components in the implementation of a management control structure, in
                                  that they provide valuable performance data both to supervisors and to
                                  higher-level managers. However, FSIS is still in the process of fully and
                                  effectively refining and implementing both systems. While the
                                  management control structure is not an actual component of FSIS’
                                  risk-based inspection determination, it directly affects the accuracy of
                                  recorded risk factors such as microbial test results and food safety-related
                                  noncompliance records (NRs). 9

                             •    We assessed FSIS’ progress in implementing 94 prior audit
                                  recommendations, which OIG considered to be the most critical to the
                                  development and implementation of risk-based inspection. Although
                                  recent improvements have been made, we found FSIS did not timely
                                  address deficiencies noted in prior OIG audit reports. For 3 of the 94
                                  recommendations, no agreement has been reached on the actions needed
                                  to correct reported deficiencies; agreements should be reached no later
                                  than 6 months after the audit report is issued. One of these
                                  recommendations was made in June 2000. 10 For an additional 34
                                  recommendations, FSIS did not implement the agreed upon corrective
                                  actions within 1 year. According to FSIS officials, the amount of time it
                                  takes to close a recommendation varies and is due to the (1) difficulty and
                                  complexity of the corrective action, (2) emerging public health problems
                                  that compete for agency resources, and (3) the continuous evolution of
                                  agency programs and industry practices.

                             To further assess the development of risk-based inspection, we conducted site
                             visits at 15 processing establishments. We also reviewed certain data and


8
   FSIS implemented IPPS in October 2002. AssuranceNet did not become fully functional until approximately
   February 2007.
9
   FSIS inspection personnel issue an NR to an establishment that is not complying with regulatory requirements. In the
   NR, the inspector cites one or more applicable regulatory requirements from a list of over 500 citations. NRs are also
   recorded in FSIS’ Performance Based Inspection System, the system currently used to record inspection results.
10
   In our report on the Implementation of HACCP (Audit Report No. 24001-03-At, June 2000), we recommended that FSIS
   establish timeframe requirements for responding to NRs and initiating planned corrective actions. FSIS does not agree
   with establishing specific timeframes but has not proposed an alternative approach to address this recommendation. NRs
   are critical to FSIS’ risk-based inspection model.
USDA/OIG-A/24601-07-Hy                                                                                          Page v
                             information for the two establishments with large recalls 11 of ground beef
                             products potentially contaminated with E. coli O157:H7: (1) United Food
                             Group, LLC (Establishment No. 1241) and (2) Topps Meat Company, LLC
                             (Establishment No. 9748). 12

                             •   At the 15 establishments visited, FSIS inspection personnel did not
                                 document that they were reviewing the results of establishment pathogen
                                 testing on at least a weekly basis. 13 Inspection personnel were not subject
                                 to sufficient supervisory oversight to ensure they are fulfilling this
                                 requirement. Documenting that inspection personnel review
                                 establishment testing on at least a weekly basis assists in validating that
                                 food safety concerns that require additional followup are recognized in a
                                 timely manner.

                             •   We reviewed inspection data associated with the two establishments with
                                 recent recalls of ground beef products potentially contaminated with
                                 E. coli O157:H7. As a result, we found FSIS inspection personnel did not
                                 always link 14 NRs identifying recurring sanitary deficiencies. However,
                                 even when NRs were linked, FSIS inspection personnel did not have
                                 guidance on when to take further enforcement actions when addressing
                                 repetitive noncompliance violations. This occurred because FSIS had not
                                 issued the necessary criteria for evaluating repetitive noncompliance
                                 violations to establish when further enforcement action must be taken as
                                 recommended and agreed to in prior OIG audit reports. As a result, there
                                 is reduced assurance FSIS personnel are effectively identifying food
                                 hazards caused by unsanitary practices. Linkage of related NRs and
                                 associated evaluation criteria would provide a basis for determining when
                                 an establishment’s corrective actions were inadequate and when
                                 additional enforcement actions should be initiated. NRs and enforcement
                                 actions are two critical components of FSIS’ risk-based inspection model.

                             In September 2007, FSIS awarded a contract to build the agency’s new
                             Public Health Information System (PHIS) in order to better integrate and
                             consolidate its numerous applications that collect information on activities to
                             ensure the safety of meat, poultry, and egg products. FSIS plans to have a
                             functional domestic inspection module ready for limited deployment in the
                             third quarter of calendar year 2008 with full production implementation
                             scheduled for the second quarter of calendar year 2009. The sub-modules
                             currently identified for the domestic inspection module include: in-plant
                             inspection activity, food safety assessments, laboratory sample scheduling,

11
   We did not evaluate what FSIS processes may have broken down for these recalls because FSIS’ internal investigations
   were still in process at the end of our fieldwork.
12
   We did not visit this Topps Meat Company, LLC due to FSIS’ ongoing investigation.
13
   FSIS initiated the review of establishment pathogen testing in response to a recommendation from our report on the
   Oversight of the Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
14
   Linking refers to documenting in an NR that similar deficiencies were noted in a previous NR or NRs.
USDA/OIG-A/24601-07-Hy                                                                                        Page vi
                   in-plant data and data from other sources, reporting, and predictive modeling
                   and analysis (see Exhibit A). As FSIS moves forward with development of
                   risk-based inspection, the agency should institute the appropriate oversight
                   and control during the development of critical IT systems such as PHIS.

                   We believe that FSIS needs to address the deficiencies in the agency’s
                   infrastructure and processes identified in this report. By addressing these
                   elements, FSIS will take significant, critical steps to support a
                   comprehensive, timely, and reliable data-driven risk-based inspection
                   program.

Recommendations
In Brief           FSIS should complete its plan for improving the use of food safety
                   assessment-related data and determine how the assessment results will be
                   used in estimating establishment risk. As the agency moves forward with the
                   development and implementation of a risk-based inspection program, FSIS
                   should ensure that components of the selected algorithm are thoroughly
                   documented and evaluated with limitations mitigated and are transparent (i.e.,
                   clear and understandable) to all stakeholders. The agency should conduct
                   analyses to support the data windows selected for assessing an
                   establishment’s ability to control risk. FSIS should also institute appropriate
                   oversight and control over the development of critical IT systems needed to
                   support risk-based inspection. In various sections of this report, we have
                   recommended actions aimed at strengthening FSIS’ training programs for its
                   supervisory and inspection personnel.

                   FSIS should develop and implement procedures to ensure sufficient, timely
                   followup work is performed in response to findings in food safety
                   assessments. FSIS should continue with efforts begun during the course of
                   our audit to prioritize and schedule food safety assessments. FSIS should also
                   continue its efforts to complete a comprehensive, agency-wide examination
                   of its information needs and establish a process for periodically reassessing
                   these needs. This will include management controls to identify the specific
                   types of information to collect, the standard reports to produce, and analyses
                   to perform by program areas and district offices. FSIS should continue its
                   increased diligence to resolve prior audit recommendations.

                   FSIS needs to provide written procedures and guidance on the use of the
                   AssuranceNet system, to ensure that its data are being used in the most
                   effective manner and to allow the system to be used in the context of a larger
                   management control structure. In addition, FSIS needs to implement
                   procedures to ensure that IPPS data being input to AssuranceNet are properly
                   supported, and to strengthen AssuranceNet’s monitoring over the IPPS
                   process.



USDA/OIG-A/24601-07-Hy                                                                   Page vii
                   FSIS needs to develop and implement requirements for inspection personnel
                   to document their reviews of establishment testing results and for supervisory
                   officials to ensure that this requirement is met. FSIS should expedite the
                   development of criteria for progressive enforcement actions inspection
                   personnel should follow when repetitive deficiencies are noted.

Agency
Response           FSIS agreed with the report’s 35 recommendations. We have incorporated
                   FSIS’ response in the Findings and Recommendations section of this report,
                   along with the OIG position. FSIS’ responses to the draft report are included
                   in Exhibits I and J. FSIS’ earlier responses to issues reported during our
                   audit fieldwork are included as Exhibits C through G.

OIG
Position           Based on FSIS’ responses, we were able to reach management decision on all
                   of the report’s 35 recommendations.




USDA/OIG-A/24601-07-Hy                                                                  Page viii
Abbreviations Used in This Report


AMR                 Advanced Meat Recovery
ANSI                American National Standards Institute
APHIS               Animal and Plant Health Inspection Service
CDC                 Center for Disease Control and Prevention
C.F.R.              Code of Federal Regulations
COTR                Contracting Officer’s Technical Representative
DAIG                Data Analysis and Integration Group
DCC                 Data Coordination Committee
E. coli             Escherichia coli
EARO                Executive Associate for Regulatory Operations
EIAO                Enforcement, Investigation, and Analysis Officer
FSIS                Food Safety and Inspection Service
HACCP               Hazard Analysis and Critical Control Point
IPPS                In-Plant Performance System
IT                  Information Technology
Lm                  Listeria monocytogenes
OFO                 Office of Field Operations
OIG                 Office of Inspector General
OMB                 Office of Management and Budget
OPEER               Office of Program Evaluation, Enforcement and Review
OPPED               Office of Policy, Program, and Employee Development
NACMPI              National Advisory Committee on Meat and Poultry Inspection
NR                  Noncompliance Record
PBIS                Performance Based Inspection System
PEIS                Program Evaluation and Improvement Staff
PHICP               Public Health Information Consolidation Project
PHIS                Public Health Information System
RTE                 Ready-to-Eat
SRM                 Specified Risk Material
SSOP                Sanitation Standard Operating Procedure
TSC                 Technical Service Center
USDA                U.S. Department of Agriculture




USDA/OIG-A/24601-07-Hy                                                           Page ix
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................ix

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 5

    Section 1. FSIS’ Approach to the Design of Risk-Based Inspection............................................. 5

        Finding 1             FSIS Did Not Include Assessments of Establishments’ Risk Control
                              Effectiveness ........................................................................................................... 5
                                  Recommendation 1 .......................................................................................... 6
                                  Recommendation 2 .......................................................................................... 7
                                  Recommendation 3 .......................................................................................... 8
        Finding 2             Data Limitations in the Algorithm for Risk-Based Inspection ............................... 9
                                  Recommendation 4 ........................................................................................ 23
                                  Recommendation 5 ........................................................................................ 23
                                  Recommendation 6 ........................................................................................ 24
                                  Recommendation 7 ........................................................................................ 25
                                  Recommendation 8 ........................................................................................ 26
                                  Recommendation 9 ........................................................................................ 26
                                  Recommendation 10 ...................................................................................... 27

    Section 2. FSIS’ Infrastructure to Control and Oversee Regulated Activities.......................... 28

        Finding 3             FSIS Needs to Strengthen Security Over IT Resources and PBIS
                              Application Controls ............................................................................................. 29
                                  Recommendation 11 ...................................................................................... 31
        Finding 4             FSIS Needs to Further Enhance Controls Concerning Food Safety
                              Assessments .......................................................................................................... 32
                                  Recommendation 12 ...................................................................................... 34
                                  Recommendation 13 ...................................................................................... 35
                                  Recommendation 14 ...................................................................................... 36
                                  Recommendation 15 ...................................................................................... 37
        Finding 5             A Comprehensive Agency-wide Data Analysis and Distribution System is
                              Needed................................................................................................................... 37
                                  Recommendation 16 ...................................................................................... 44
                                  Recommendation 17 ...................................................................................... 45
                                  Recommendation 18 ...................................................................................... 47
                                  Recommendation 19 ...................................................................................... 47
                                  Recommendation 20 ...................................................................................... 48
                                  Recommendation 21 ...................................................................................... 49
USDA/OIG-A/24601-07-Hy                                                                                                                         Page x
                                    Recommendation 22 ...................................................................................... 50
                                    Recommendation 23 ...................................................................................... 51
        Finding 6             Progress Made on Management Control Structure, But Improvements are
                              Still Needed ........................................................................................................... 51
                                    Recommendation 24 ...................................................................................... 58
                                    Recommendation 25 ...................................................................................... 58
                                    Recommendation 26 ...................................................................................... 58
                                    Recommendation 27 ...................................................................................... 59
                                    Recommendation 28 ...................................................................................... 59
                                    Recommendation 29 ...................................................................................... 60
        Finding 7             FSIS Did Not Timely Address Prior Audit Recommendations ............................ 60
                                    Recommendation 30 ...................................................................................... 61
        Finding 8             Inspection Personnel Did Not Document Their Review of Establishment
                              Test Results ........................................................................................................... 62
                                    Recommendation 31 ...................................................................................... 62
                                    Recommendation 32 ...................................................................................... 63
        Finding 9             FSIS Needs to Provide Guidance on Progressive Enforcement Actions .............. 64
                                    Recommendation 33 ...................................................................................... 66
                                    Recommendation 34 ...................................................................................... 66
                                    Recommendation 35 ...................................................................................... 67

Scope and Methodology........................................................................................................................ 68

Exhibit A –Public Health Information System .................................................................................. 71
Exhibit B –Prior OIG Audit Reports with Recommendations that Impact the Development
             of Risk-Based Inspection at Processing Establishments.............................................. 74
Exhibit C –FSIS Response to Issues Regarding Food Safety Assessments ..................................... 75
Exhibit D –FSIS Response to Issues Regarding IT Security ................ Error! Bookmark not defined.
Exhibit E –FSIS Response to Issues Regarding Application Controls for the Performance
             Based Inspection System................................................................................................. 86
Exhibit F – FSIS Response to Issues Regarding Data Management Infrastructure and
             Analyses............................................................................................................................ 92
Exhibit G – FSIS Response to Issues Regarding Management Control Structure......................... 96
Exhibit H– Selected Processing Establishments............................................................................... 106
Exhibit I– Agency Response to the Draft Report............................................................................. 107
Exhibit J– Supplemental Information in Response to Seven Recommendations ......................... 125




USDA/OIG-A/24601-07-Hy                                                                                                                       Page xi
Background and Objectives
Background                   The Food Safety and Inspection Service (FSIS) is the public health regulatory
                             agency of the U.S. Department of Agriculture (USDA). As such, the agency
                             protects consumers by ensuring that meat, poultry, and egg products are safe,
                             wholesome, and accurately labeled. Under the Federal Meat Inspection Act
                             and the Poultry Products Inspection Act, FSIS inspects all meat and poultry
                             products sold in interstate commerce to ensure that they meet U.S. food
                             safety standards.

                             For more than 90 years, meat inspection was based on organoleptic 15
                             methods, using sight, touch, and smell. However in 1993, a deadly outbreak
                             of the Escherichia coli (E. coli) O157:H7 strain signaled the need for greater
                             controls based on science to prevent food-borne illness and protect
                             consumers. In 2000, FSIS completed implementation of the Pathogen
                             Reduction and Hazard Analysis and Critical Control Point (HACCP) system,
                             which required meat and poultry establishments to target and reduce harmful
                             bacteria in their products. Under the regulations, establishments must develop
                             and implement a written plan for meeting their sanitation responsibilities, as
                             well as develop and implement a HACCP plan that systematically addresses
                             all significant hazards associated with their products. Establishments also
                             must meet pathogen reduction performance standards for Salmonella, and
                             verify process control through generic E. coli testing. FSIS is responsible for
                             verifying that establishments’ HACCP systems are working and that they
                             prevent adulterated (i.e., contaminated) meat and poultry products from
                             entering commerce.

                             In February 2007, FSIS proposed a risk-based inspection algorithm 16 to rank
                             the potential risks at processing establishments for allocating more inspection
                             resources to riskier plants. This algorithm combined an estimate of the
                             potential risk that was considered inherent to the establishment (inherent risk
                             measure) and an estimate of how well the establishment controlled those
                             potential risks (risk control measure). The inherent risk measure included
                             factors for the different types of processed products and the volume of the
                             products produced by the establishment. The risk control measure considered
                             the following seven factors, as applicable to the establishment: (1) public
                             health significant noncompliance records (NRs), (2) enforcement actions,
                             (3) control of Listeria monocytogenes (Lm) in Ready-to-Eat (RTE) products,
                             (4) control of Salmonella in raw meat and poultry products, (5) microbial
                             testing program results, (6) food safety recalls, and (7) food safety consumer
                             complaints.

15
   Organoleptic methods relate to the senses (taste, color, odor, feel). Traditional USDA meat and poultry inspection
   techniques are considered organoleptic because inspectors perform a variety of procedures that involve visually
   examining, feeling, and smelling animal parts to detect signs of disease or contamination. These inspection techniques
   are not adequate to detect food-borne pathogens that are of growing concern.
16
   A precise rule (or set of rules) specifying how to solve some problem.
USDA/OIG-A/24601-07-Hy                                                                                          Page 1
                               FSIS had planned to begin using this algorithm in 30 locations, which
                               included 254 of the more than 5,000 meat and poultry processing
                               establishments, in April 2007. 17 Each location represented samples of
                               establishments in close geographic proximity. By November 2007, FSIS
                               expected to complete policy development and programming for the
                               risk-based algorithm and to revise it, as necessary. The agency then planned
                               to test the algorithm in 150 additional locations. Full implementation was
                               originally scheduled to begin in June 2008. The following briefly summarizes
                               each component of FSIS’ original risk-based inspection algorithm. FSIS’
                               methodology for using this algorithm to determine an establishment’s level of
                               inspection 18 is detailed in documentation posted on FSIS’ website.

                               Inherent Risk Measure

                               •    Species/Process Values- In order to rank the potential hazards inherent in
                                    the meat and poultry products regulated by FSIS, the agency used an
                                    expert elicitation 19 conducted in 2005. The experts ranked the risks
                                    associated with the species processed (i.e., beef, pork, or poultry) and the
                                    production processes used (e.g., raw ground product, RTE product, etc.)
                                    by establishment.

                               •    Production Volume- FSIS inspection personnel estimated production
                                    volume using a range of pounds produced in a typical day over a period
                                    of days in a 30-day period.

                               Risk Control Measure

                               •    Public Health Significant NRs- FSIS inspection personnel document
                                    when an establishment is noncompliant by recording an NR in the
                                    agency’s Performance Based Inspection System (PBIS). When inspectors
                                    issue an NR, they cite one or more applicable regulatory requirements
                                    from a list of over 500 citations. The rate at which an establishment fails
                                    to meet these requirements and receives an NR is considered by FSIS to
                                    be an indication of the establishment’s ability to control risk. For the

17
   FSIS provided OIG with establishment listings that originated from each district office. Because each district office did
   not provide its listing using the same format, we were unable to confirm the completeness of the number provided as to
   the total number of meat and poultry processing establishments.
18
   An establishment’s level of inspection defines the type of inspection procedures FSIS would perform under its risk-based
   inspection model. The risk-based inspection measure determined the level of inspection. The risk-based inspection
   measure is an average of the inherent risk and risk control measures. The higher the risk-based inspection measure for a
   given establishment the higher the level of risk. FSIS proposed three levels of inspection: Level 1 would be less intense
   inspection for establishments with lower risk, Level 3 would be more intense inspection for establishments with higher
   risk, and Level 2 would be about the same intensity of inspection as under the current system for all establishments that
   fall between Level 1 and 3. Regardless of the level of inspection, FSIS planned to be in each processing establishment at
   least once per shift, per day.
19
   An expert elicitation pulls together a panel of experts, carefully assesses the uncertainties in each of their views, and then
   mathematically combines their risk estimates along with the accompanying uncertainties.
USDA/OIG-A/24601-07-Hy                                                                                                  Page 2
                                   purpose of calculating the risk control measure, FSIS ranked 20 each of the
                                   regulatory requirements in one of four categories based on how strongly
                                   each indicated a loss of an establishment’s food safety system process
                                   control. This provided a point score that could be used as a weighting
                                   factor in the risk control measure calculation.

                              •    Enforcement Actions- Enforcement actions are a measure of an
                                   establishment’s ability to implement and maintain corrective action once
                                   a noncompliance is observed and documented. FSIS can take a variety of
                                   enforcement actions (e.g., notice of intended enforcement, suspension,
                                   and inspection under consent order) against establishments that fail to
                                   sufficiently comply with applicable requirements. In order to calculate the
                                   risk control measure, FSIS assigned points to each type of enforcement
                                   action.

                              •    Control of Lm in RTE Product- Establishments that produce RTE
                                   products that are exposed to the environment subsequent to the lethality
                                   step 21 must classify its products into one of three possible alternatives
                                   used for controlling Lm. 22 FSIS assigned points to an establishment based
                                   on its Lm alternative in order to calculate the risk control measure.

                              •    Control of Salmonella- Establishments that produce certain types of raw
                                   meat and poultry products are subject to Salmonella performance
                                   standards. These establishments are classified into one of several
                                   Salmonella verification categories based on the results of recent
                                   Salmonella test sets. FSIS assigned a higher score to establishments in
                                   higher verification categories as these establishments’ controls were less
                                   effective for controlling Salmonella.

                              •    Microbial Test Results- Establishments that produce RTE and/or raw
                                   ground beef products are subject to pathogen testing programs. RTE
                                   products are tested for Lm, Salmonella, and E. coli O157:H7 and raw
                                   ground beef products are subject to E. coli O157:H7 testing. The agency
                                   considers establishments that test positive for these pathogens as
                                   demonstrating a loss of food safety system process control and increases
                                   its risk control measure. FSIS assigned points for this portion of the
                                   calculation based on the frequency of positive test results.

                              •    Food Safety Recalls- Establishments that recall meat or poultry product
                                   demonstrate a loss of food safety system process control. FSIS assigned
20
   OIG did not evaluate the methodology used by FSIS for determining these rankings because FSIS used subject matter
   experts to perform the rankings.
21
   A lethality step is a successful treatment to kill Lm on product.
22
   Under Alternative 1, the establishment uses a post-lethality treatment (which may be an antimicrobial agent) that reduces
   or eliminates microorganisms on the product and an antimicrobial agent or process that suppresses or limits the growth of
   Lm. Under Alternative 2, the establishment uses either the post-lethality treatment or antimicrobial agent or process that
   limits the growth of Lm described in Alternative 1. Under Alternative 3, the establishment relies on sanitation measures
   to control Lm.
USDA/OIG-A/24601-07-Hy                                                                                              Page 3
                                   points to the risk control measure for recalls with the probability that
                                   eating the food could cause health problems or death.

                               •   Food Safety Consumer Complaints- FSIS assigned a point value based on
                                   the number of verified food safety consumer complaints. These verified
                                   complaints are evidence of an establishment’s loss of food safety system
                                   process control.

                               In response to questions raised 23 on March 1, 2007, we initiated a review to
                               obtain an understanding of FSIS’ approach and timeline for designing and
                               implementing risk-based inspection. We intended to identify any matters that
                               needed to be reported immediately and to develop a strategy and approach for
                               more detailed reviews of risk-based inspection. However, the Committees on
                               Appropriations of the U.S. House of Representatives and the U.S. Senate
                               were concerned that food safety may be compromised if risk-based
                               inspection proceeded at this time. Therefore, they included language in
                               Public Law 110-028, signed May 25, 2007, that prevented FSIS from using
                               funds to implement risk-based inspection in any location until the USDA
                               Office of Inspector General (OIG) studied the program, including the data in
                               support of its development and design, and FSIS addressed and resolved the
                               issues identified.

Objectives                     We evaluated FSIS’ plan for implementing a risk-based inspection program
                               at meat and poultry processing establishments. Specifically, we evaluated the
                               overall effectiveness of FSIS’ management control processes, as well as
                               assessed the FSIS data to support the development and design of risk-based
                               inspection, including whether FSIS determined product risk and
                               establishment risk utilizing an unbiased, logical system based on timely,
                               comprehensive, accurate, and scientific data. In addition, we determined
                               whether FSIS had fully implemented prior OIG audit recommendations
                               considered the most critical to the development and implementation of
                               risk-based inspection.




23
     The questions were raised by the Chairwoman of the Subcommittee on Agriculture, Rural Development, Food and Drug
     Administration, and Related Agencies of the Committee on Appropriations of the U.S. House of Representatives during
     our fiscal year 2008 appropriations hearing.
USDA/OIG-A/24601-07-Hy                                                                                          Page 4
Findings and Recommendations
Section 1. FSIS’ Approach to the Design of Risk-Based Inspection

                              In 2004, FSIS began the process of developing a risk-based inspection
                              program that would assign more inspection resources at processing
                              establishments that posed a greater food safety risk. FSIS planned to begin
                              implementation of risk-based inspection in February 2007 before completing
                              an assessment of, and determining the data needed for, a comprehensive risk
                              determination. At that time, FSIS officials believed their data were “sound,
                              comprehensive, and reliable” and they saw the “potential to make real and
                              immediate improvements” to inspection operations. FSIS planned to
                              implement an initial phase of risk-based inspection using available data, and
                              to continue collecting and refining data and data needs in subsequent phases.
                              FSIS chose to move forward with a pilot risk-based inspection program 24
                              even though it recognized there were limitations and uncertainties that
                              impacted the interpretation and use of the available data.25 Prior audits issued
                              since 2000 (see Exhibit B) also raised concerns regarding FSIS’ systems and
                              processes for validating establishment food safety systems and for
                              accumulating, analyzing, and reporting inspection and microbial test data.

                              Public Law 110-028 was signed on May 25, 2007, and it included language
                              that prevented FSIS from using funds to implement a risk-based inspection
                              program in any location until OIG studied the program, including a review of
                              the data in support of its development and design, and whether FSIS had
                              addressed and resolved the issues identified. This Section presents our
                              observations on the process used to develop risk-based inspection. It also
                              highlights concerns and limitations with FSIS’ approach that the agency
                              should consider as it moves forward with the development and
                              implementation of a risk-based inspection program.


Finding 1                     FSIS Did Not Include Assessments of Establishments’ Risk
                              Control Effectiveness

                              In the pilot program, FSIS planned to implement risk-based inspection
                              without incorporating the results of FSIS’ assessments of establishments’ risk
                              control effectiveness (i.e., food safety assessments). In a concept paper for
                              measuring establishment risk control for risk-based inspection, dated
                              July 2006, FSIS recognized that a food safety assessment yields the agency’s
                              best evidence about the design of an establishment’s food safety system.
                              FSIS, however, chose to move forward without considering this most basic

24
   FSIS intended to implement the pilot in April 2007 in 30 prototype locations, which included 254 processing
   establishments.
25
   The data limitations and uncertainties are outlined in the current draft of FSIS’ Risk-Based Inspection for Processing
   Technical Report, dated August 27, 2007. FSIS plans to have this report peer reviewed by a third party before issuing it
   in final, which is expected to be in March 2008.
USDA/OIG-A/24601-07-Hy                                                                                            Page 5
                   assessment of establishment risk because food safety assessment data were
                   not in a format that could be easily used for estimating risk. FSIS did,
                   however, plan to incorporate a measurement for food safety assessments into
                   risk-based inspection calculations after the pilot. Currently, food safety
                   assessments are reported in an inconsistent, text format, which FSIS
                   recognizes does not allow them to use the data in their methodology for
                   determining risk. FSIS also recognizes that the format does not allow them to
                   analyze food safety assessment results fully for policy development, to
                   compare establishments, and to track changes at an establishment over time.
                   During our audit, FSIS developed and initiated an action plan for enhancing
                   food safety assessment-related data.

                   Under final regulations published in 1996, all meat and poultry slaughter and
                   processing establishments are required to implement a system of process
                   controls, called HACCP, for preventing food safety hazards. FSIS is
                   responsible for verifying that each establishment’s HACCP system is
                   operating in compliance with these regulations in a way that will result in the
                   production of safe meat and poultry products.

                   We discussed this concern and our recommendations in an issue paper
                   provided to FSIS on August 23, 2007. FSIS provided its response on
                   September 18, 2007 (see Exhibit C).

Recommendation 1

                   Implement an action plan with specific milestone dates for capturing the
                   results of food safety assessments in an appropriate configuration that allows
                   for effective analysis.

                   Agency Response.

                   On September 26, 2007, FSIS awarded a contract to build the agency’s new
                   Public Health Information System (PHIS). FSIS plans to have a functional
                   domestic inspection module, including the new electronic food safety
                   assessment module, ready for limited deployment in April 2008. Full
                   production implementation should be in August 2008, based on a 10 month
                   period of performance. PHIS will facilitate effective analyses by capturing
                   similar types of information for all establishments, capturing those findings in
                   quantifiable terms, storing detailed food safety assessment findings in an
                   electronic format, and interacting with the replacement for PBIS (see Exhibit
                   C).

                   In the response to the draft report, dated November 26, 2007, FSIS also
                   agreed to establish unique tracking numbers for each food safety assessment
                   recorded in the PHIS (see Exhibit I).



USDA/OIG-A/24601-07-Hy                                                                     Page 6
                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 2

                       Perform food safety assessments, using the new configuration, in all
                       establishments that will be in the universe of establishments where risk-based
                       inspection may be used. The food safety assessments should be
                       comprehensive assessments of the establishment’s current operations.

                       Agency Response.

                       In the supplemental response to the draft report dated November 30, 2007,
                       FSIS agreed that prior to implementing a redesigned processing risk-based
                       inspection system via the domestic inspection module of the PHIS, FSIS will
                       have performed food safety assessments under the new configuration in all of
                       the largest processing establishments, i.e. those that produce approximately
                       95 percent of meat and poultry products annually. FSIS will use the results
                       from these food safety assessments, along with other data, to estimate the
                       levels of risk posed by these establishments’ products to the public health.
                       Inspection then will be allocated in consideration of these estimated levels of
                       risk.

                       After the new risk-based inspection system is implemented, to estimate risk
                       for establishments that have not yet had food safety assessments under the
                       new configuration, FSIS will use data from the establishments’ profile in
                       PHIS, inspection and micro-testing results, and enforcement and other data.
                       PHIS “profile” and “event” data will represent a significant expansion over
                       the data currently contained in PBIS, and will include establishment testing
                       results, production volume, and other data.

                       Further, PHIS will raise “flags” based on establishment profile and other data
                       indicating the possible need for a food safety assessment in these
                       establishments, regardless of their production volume. So, immediately after
                       the implementation of the PHIS, PHIS profile and other data will be used not
                       only to estimate risk and allocate inspection resources but also to prioritize
                       food safety assessments for smaller volume establishments that have not yet
                       had food safety assessments under the new configuration.

                    The Data Analysis and Integration Group (DAIG) risk-based inspection
                    technical paper and the business process documents for the new food safety
                    assessments and the “in-plant inspection area” of the PHIS will detail the
                    content of the new food safety assessments; the range of data to be contained
                    in the domestic inspection module of PHIS; the PHIS flags, which are raised
                    based on establishment “profile” and “event” data and that indicate the
                    possible need for a food safety assessment; and the algorithm used for
                    calculating establishment risk.
USDA/OIG-A/24601-07-Hy                                                                    Page 7
                   FSIS officials have established a timeline for initiating the domestic
                   inspection module of PHIS nationwide. As noted in the timeline, many
                   milestones must be met to put this module in production, which is expected
                   to be during the second quarter of calendar year 2009 (see Exhibit J).

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 3

                   Determine how the results of food safety assessments will be used by FSIS in
                   estimating establishment risk.

                   Agency Response.

                   In the supplemental response to the draft report dated November 30, 2007,
                   FSIS stated that the agency is developing a new, more comprehensive food
                   safety assessment configuration and will incorporate it into the domestic
                   inspection module of the PHIS. Food safety assessments conducted under the
                   new configuration will be scheduled, in part, using “flags” in PHIS data that
                   show public health risks indicating the possible need for a food safety
                   assessment at an individual establishment. The food safety assessment
                   results, in turn, will be fed into PHIS to help FSIS managers to better
                   estimate the risks posed by an establishment’s products and allocate
                   inspection resources accordingly.

                   In addition, FSIS is creating a new food safety assessment instrument
                   consisting of sections containing a series of data gathering and data analysis
                   questions tailored to the specific food safety hazards and regulatory
                   requirements associated with each HACCP 03 process (e.g., 03B Raw
                   Product-Ground). The new food safety assessment reporting instrument will
                   be web-based; interactive with the new domestic inspection system to obtain
                   needed profile data; consist of questions to help structure an EIAOs
                   investigation reporting, as well as prompt the EIAO to explain their findings;
                   provide consistent information for analysis purposes to inform policy and
                   inspection resource allocation; and contain a tracking system to ensure food
                   safety assessments for cause are getting performed and that all relevant
                   establishments are assessed at least every four years.

                   The DAIG is developing an algorithm for estimating risk posed by the
                   products from establishments, which can be used to allocate inspection
                   resources based on risk. The DAIG will publish a peer-reviewed risk-based
                   inspection technical paper by March 17, 2008, and will develop the method
                   for incorporating food safety assessment results data into the risk-based
                   inspection algorithm by December 1, 2008.

USDA/OIG-A/24601-07-Hy                                                                    Page 8
                               FSIS officials have established a timeline for initiating the domestic
                               inspection module of PHIS nationwide. As noted in the timeline, many
                               milestones must be met to put this module in production, which is expected
                               to be during the second quarter of calendar year 2009 (see Exhibit J).

                               OIG Position.

                               We accept FSIS’ management decision.


Finding 2                      Data Limitations in the Algorithm for Risk-Based Inspection

                               FSIS has recognized that to effectively make risk management decisions for
                               protecting the U.S. food supply, sound science based on high quality data is
                               needed. Several external groups, including OIG, stakeholders, 26 and the
                               National Advisory Committee on Meat and Poultry Inspection (NACMPI)
                               have provided comments to FSIS regarding deficiencies in agency data. To
                               address these concerns, in April 2007, FSIS formed the DAIG to improve
                               agency data by identifying data needs and by analyzing and integrating the
                               data.

                               During the course of our audit, FSIS’ DAIG began a critical in-depth
                               examination 27 of the data used in the nine components of the risk-based
                               inspection algorithm with a view to refine and expand the data used in future
                               versions of risk-based inspection. According to FSIS officials, some of the
                               limitations the DAIG identified had been acknowledged in the development
                               of the initial phase of risk-based inspection and FSIS intended to mitigate
                               them in future versions of risk-based inspection. This review is still in
                               process, but the agency has already disclosed limitations and uncertainties
                               regarding each of these components. Our audit tests verified the limitations
                               and uncertainties of various components of the algorithm. We also found
                               FSIS could not provide documentation of analyses it performed to support
                               that the window of data 28 used to determine how well an establishment
                               controlled risks was appropriate. FSIS needs to ensure the basis for decisions
                               made regarding the components included in the risk-based inspection
                               program are thoroughly documented and evaluated with limitations mitigated
                               and are transparent (i.e., clear and understandable) to all stakeholders.

                               In February 2007, FSIS proposed a risk-based inspection algorithm to rank
                               the potential risks across different establishments for allocating inspection
                               resources. This algorithm combined an estimate of the potential risk that was

26
   Stakeholders include representatives from such entities as States, academia, consumers, industry, Federal agencies, and
   foreign countries.
27
   We reviewed the most current draft of FSIS’ Risk-Based Inspection for Processing Technical Report, dated
   August 27, 2007. FSIS plans to have this report peer reviewed by a third party before issuing it in final, which is expected
   to be in March 2008.
28
   A window of data is a baseline time period for data collection.
USDA/OIG-A/24601-07-Hy                                                                                                Page 9
                                considered inherent to the establishment (inherent risk measure) and an
                                estimate of how well the establishment controlled those potential risks (risk
                                control measure). The inherent risk measure included factors for the different
                                types of processed products and the volume of the products produced by the
                                establishment. The risk control measure considered the following seven
                                factors, as applicable to the establishment: (1) public health significant NRs,
                                (2) enforcement actions, (3) control of Lm in RTE products, (4) control of
                                Salmonella in raw meat and poultry products, (5) microbial testing program
                                results, (6) food safety recalls, and (7) food safety consumer complaints.

                                In October 2007, FSIS accelerated implementation of initiatives originally
                                scheduled for Spring 2008 to respond to concerns related to two large recalls
                                of ground beef product potentially contaminated with E. coli O157:H7. At
                                that time, FSIS also accelerated its plans to review the control of this
                                pathogen by beef suppliers and processors. In June 2007, FSIS identified an
                                increased number of E. coli O157:H7 positive tests in beef, as well as a larger
                                number of recalls and illnesses caused by this pathogen than in recent years.

                                During the development of risk-based inspection, FSIS requested input from
Data Window for                 stakeholders on the appropriate window of data (i.e., period of time) to be
Components of                   used for determining an establishment’s risk control measure. Stakeholders
the Risk Control                suggested periods of 6 months or 1 year as possible choices. FSIS officials
Measure                         made the determination to use a 6 month rolling data window for NRs,
                                consumer complaints, and recalls; and a 1 year window for microbial test
                                results and for the control of Salmonella. 29 In response to our inquiries during
                                audit fieldwork, FSIS officials explained that the agency did not conduct
                                analyses to support that these data windows were appropriate; FSIS based the
                                windows on internal discussions and stakeholder input.

                                The proposed inherent risk measure is based on the types of processed
Analysis                        products and the volume of these products produced by an establishment.
Planned for                     FSIS used an expert elicitation conducted in 2005 to rank risks associated
Inherent Risk                   with species (i.e., meat, pork, or poultry) and type of processing (e.g., raw,
Measure                         ground, ready-to-eat). This ranking was then weighted based on the
                                proportion of product volume for each product. FSIS is examining the
                                relative importance of the two components of inherent risk, as well as how
                                much weight each factor should be given. Multivariate analyses are also
                                being conducted to examine how changing the weight does and should
                                impact the final inherent risk measure.




29
     Data for the other factors used in the risk control measure, enforcement actions and the control of Lm in RTE products,
     were to be based on the day an establishment’s level of inspection was computed.
USDA/OIG-A/24601-07-Hy                                                                                            Page 10
Potential                        In order to rank the potential hazards inherent in the products regulated by
Limitations of                   FSIS relative to risk-based inspection, the agency has sought the opinion of
the Expert                       experts in two similar elicitations—one in 2005 and another in 2007. 30
Elicitation Data                 Because varying amounts of data on risk from the different types of
                                 processed meat and poultry products were available, FSIS conducted the
                                 expert elicitations in an effort to organize existing data and expert judgment
                                 into a ranking of relative public health risks posed by each product type.
                                 During the course of our audit, FSIS acknowledged the following limitations,
                                 among others, related to its expert elicitation data.

                                 •   Experts were asked to consider only bacterial hazards, not viral, chemical,
                                     or physical hazards. The inclusion of those hazards would raise the
                                     rankings of some products.

                                 •   FSIS assumed that the establishments were establishments with typical
                                     food safety controls. Including consideration of food safety control
                                     failures could have raised the ranking of some products with a higher
                                     incidence of control failures.

                                 FSIS has recognized that when considering the use of the results from expert
Analyses
                                 elicitations, it is important to analyze additional factors that were not
Related to
                                 previously considered in its interpretation of this data. The following analyses
Expert
                                 are in various stages of completion.
Elicitations
                                 •   FSIS is comparing the consistency of the 2005 and 2007 elicitations
                                     across the various experts, both within a given elicitation and across the
                                     different elicitations. There was variability in the absolute ratings of
                                     products across experts for some products (although the relative rankings
                                     were consistent both within each elicitation and between the 2005 and
                                     2007 rankings). FSIS believes a strong correlation between the two
                                     elicitations of different experts would provide confidence in the results of
                                     each expert elicitation.

                                 •   The agency is analyzing its own microbial sampling results to determine
                                     if those products and processes that were ranked in the expert elicitations
                                     as having the highest likelihood of illness are the most likely to have a
                                     contamination event. FSIS will compare the incidence of E. coli
                                     O157:H7, Salmonella, and Lm in various end products with the expert
                                     elicitation risk rankings.

                                 •   FSIS is examining the context of published literature on food-borne
                                     illness and the food products associated with those illnesses. FSIS will
                                     summarize relevant literature and the results of the expert elicitation will
                                     be interpreted in the context of that literature.

30
     FSIS did an initial elicitation in 2001which ranked processes, but not species type. Because of this limitation, the 2001
     elicitation is not compared with the ones performed in 2005 and 2007. Stakeholder concerns with the 2005 elicitation led
     FSIS to conduct another elicitation in 2007.
USDA/OIG-A/24601-07-Hy                                                                                              Page 11
Potential                    Another component of the inherent risk measure in the risk-based inspection
Limitations of               algorithm is production volume. According to FSIS, higher production
the Production               volumes are riskier because establishments that produce larger volumes of
Volume Data                  product have a greater potential to impact public health. FSIS did not have
                             production volume data for all processing establishments in its inspection
                             database. Because FSIS would need Office of Management and Budget
                             (OMB) approval to request volume data from industry, which would take
                             considerable time, FSIS directed inspectors to estimate production volume
                             for the establishments in which they worked. 31

                             During our fieldwork in August 2007, we visited 15 processing
                             establishments. As part of this work, we obtained production volume data
                             from each establishment and compared it to the estimates from inspectors. 32
                             The production volume provided by 13 of the 14 establishments changed the
                             inherent risk measure; the change for 2 of them was significant enough to
                             change the level of inspection calculated by FSIS. This occurred because
                             FSIS inspectors inaccurately estimated production volume and incorrectly
                             identified the types of product produced by these establishments. Prior to
                             implementing risk-based inspection, FSIS should validate the accuracy of
                             data used in calculating an establishment’s level of inspection.

                             FSIS has acknowledged the following limitations, among others, related to its
                             production volume data.

                             •    The FSIS inspection force is not able to precisely collect production
                                  volume information.

                             •    The annual production volume collected from industry might
                                  misrepresent the 6-month period analyzed for risk-based inspection due to
                                  seasonal variations.

                             •    Production volume estimates by inspection program personnel can be
                                  inaccurate when compared to establishment records.

                             As FSIS moves forward to develop and implement a risk-based inspection
                             program, the agency should develop a process to obtain more accurate,
                             verifiable production data (e.g., pounds of product produced by product
                             types) and regularly update the data from FSIS-regulated establishments.



31
   As explained at the April 2007 public meeting on volume, collection of volume data from industry would require OMB
   approval due to requirements of the Paperwork Reduction Act of 1995. FSIS noted that the OMB approval process takes
   multiple months to complete and requires substantial justification.
32
   FSIS was unable to provide the production volume estimate for 1 of the 15 establishments we visited because inspection
   personnel had not yet collected this information. Therefore, we were only able to review FSIS volume data for 14
   establishments. During our fieldwork, we found that FSIS had not yet estimated production volume for 285 of the more
   than 5,000 meat and poultry processing establishments.
USDA/OIG-A/24601-07-Hy                                                                                         Page 12
                             Stakeholders have questioned whether inspection program personnel can
     Analyses                accurately estimate an establishment’s production volume. The stakeholders
     Related to              also argued that large volume establishments might have better control
     Volume Data             measures in place and, therefore, pose less risk to public health. FSIS has
                             recognized the need to perform additional analyses, not only to address these
                             stakeholders’ questions, but also to consider production volume in its
                             interpretation of the data. The following analyses are underway, although not
                             complete.

                             •   Comparisons are being made between inspector-generated estimates of
                                 volume and other available industry data on production volume. FSIS is
                                 also looking at potential methods or additional means to compare the
                                 data; including having Enforcement, Investigation, and Analysis Officers
                                 (EIAO) report more detailed information on volume as part of food safety
                                 assessments.

                             •   FSIS is comparing production volume to microbial sampling results, and
                                 other indicators of an establishment’s food safety performance. The other
                                 indicators include those proposed previously for use in risk-based
                                 inspection; namely, NRs, consumer complaints, recalls, and enforcement
                                 actions.

     Potential               FSIS inspection personnel issue NRs based upon an observed noncompliance
     Limitations of          during an inspection task and associate them with a certain regulatory
     Public Health           citation. NRs, as a component of the proposed risk control measure, were
     Significant NR          given different weights relevant to an establishment’s loss of control of its
     Data                    food safety system, and subsequent potential public health significance.

                             During our fieldwork in August 2007, we obtained the NR data used in the
                             risk-based inspection calculation for 14 of 15 establishments visited 33 to
                             verify that the data properly reflected the number of NRs filed for these
                             establishments. 34 We found one occasion where the same NR was counted
                             twice towards an establishment’s risk-based inspection calculation. This
                             establishment had 23 NRs in the calculation period. This occurred because an
                             FSIS inspector entered an NR into PBIS and then revised it. Although the NR
                             was revised, PBIS counted this NR twice. In response to our inquiries during
                             fieldwork, FSIS did not provide an explanation as to why PBIS counted this
                             NR twice.

                             For another establishment, FSIS did not include all the public health
                             significant NRs in the risk-based inspection calculation. The calculation only
                             included five NRs when six NRs had been issued. As FSIS moves forward
                             with the development of risk-based inspection, the agency needs to research
                             this type of error to ensure that data are accurately processed. The 14

33
   As noted previously, FSIS had not collected volume information for one establishment. Therefore, we could not verify
   the risk-based inspection calculation for this establishment including the NR component.
34
   The data window for NRs in the risk-based inspection calculation was April 1 to September 30, 2006.
USDA/OIG-A/24601-07-Hy                                                                                       Page 13
                                establishments had a total of 122 NRs during the period used for the
                                risk-based inspection calculation. Prior to implementing risk-based
                                inspection, FSIS should validate the accuracy of data used in calculating an
                                establishment’s level of inspection.

                                The following data limitations related to public health significant NRs have
                                been recognized by FSIS.

                                •    The issuance of NRs could vary nationwide. For example, high vacancy
                                     rates among inspectors in some districts may reduce the rate of NR
                                     issuances due to fewer inspector resources. Also, there could be an
                                     increase in a particular NR following the release of an FSIS directive or
                                     notice due to increased awareness.

                                •    Stakeholders have commented that there could also be potential food
                                     safety issues occurring at an establishment that may on occasion not be
                                     written in an NR because FSIS personnel does not recognize them as a
                                     noncompliance. FSIS conducts ongoing training of its inspection force to
                                     limit such events.

                                •    The impact of appeals of an NR by an establishment on the risk-based
                                     inspection algorithm should be examined.

     Analyses                   FSIS is evaluating whether the individual experts categorized public health
     Related to                 NRs consistently in their evaluation of each of the 564 regulations cited in
     Public Health              NRs. 35 This analysis will aid in evaluating if the categorization of citations
     Significant                by FSIS’ experts was appropriate or should be re-evaluated due to a wide
     NRs                        variation in viewpoint of the public health significance.

                                Consumer complaints could be an indication of an establishment’s ability to
     Potential                  maintain an effective food safety system. The risk control measure is based
     Limitations of             on consumer complaints that are related to a food safety issue and have been
     Consumer                   verified to be connected to a specific establishment. During the course of our
     Complaint                  audit, FSIS identified the following limitations in consumer complaint data.
     Data
                                •    FSIS’ consumer complaint monitoring was not designed to assign blame
                                     or pinpoint losses of process control; rather, it was designed to alert FSIS
                                     and establishment personnel that there have been reports of incidents that
                                     might benefit from further evaluation.

                                •    The complaint database does not reflect the total number of food-borne
                                     illnesses in the United States due to underreporting. A large number of

35
     One way FSIS is determining what types of NRs may be more predictive of adverse outcomes is by ranking NRs.
     Ranking of NRs based on their significance to adverse public health outcomes was performed by nine FSIS subject
     matter experts using four categories, which related to a food safety system’s loss of process control. According to FSIS
     officials, each expert had a diverse background of work with related regulatory experience in the meat, poultry, and egg
     products industries. OIG did not evaluate the methodology used by FSIS for determining these rankings.
USDA/OIG-A/24601-07-Hy                                                                                             Page 14
                                   illnesses might never be captured because consumers do not contact FSIS.
                                   In 1999, CDC estimated that food-borne diseases caused approximately
                                   76 million illnesses in the United States, yet there have been less than
                                   6,000 consumer complaints reported to FSIS over the past 6 years.

                               •   FSIS consumer complaint data, although always associated with an
                                   inspected establishment, cannot always definitively attribute an illness to
                                   consumption of a particular product (attribution data has been identified
                                   by nearly all stakeholders as critical for implementing a successful
                                   risk-based inspection program). This lack of definite attribution is due, in
                                   part, to the difficulties consumers have in identifying the sources of
                                   food-borne illnesses.

                               The food safety recall component of the risk control measure is intended to
     Potential                 assess whether an establishment can effectively implement a food safety plan
     Limitations of            and control product risk before its products reach commerce. During the
     Food Safety               course of our audit, FSIS identified the following limitations in food safety
     Recall Data               recall data.

                               •   Recall data do not capture every instance of a food safety system failure
                                   in an establishment. The fact that an establishment has not been linked to
                                   a recall is not evidence that it has not produced and shipped contaminated
                                   product.

                               •   There may be a significant lag time (possibly a couple of months)
                                   between when a product is distributed and when it is determined that it is
                                   contaminated and a recall is necessary.

     Potential                 There are a variety of enforcement actions the agency can take against
     Limitations of            establishments that fail to sufficiently comply with applicable requirements –
     Enforcement               both food safety and non-food safety. Enforcement actions were given
     Actions Data              different weights in the risk control measure depending on FSIS’
                               determination of severity.

                               During our review, we found that FSIS inadvertently omitted the enforcement
                               action of Notice of Intended Enforcement (NOIE) Under Deferral 36 from the
                               risk control measure. FSIS officials had not detected this omission because
                               the algorithm and supporting data had not been tested to ensure that all
                               enforcement actions were considered in the calculation. As FSIS moves
                               forward in the development and implementation of risk-based inspection, this
                               type of enforcement action should be included in the risk control measure.

                               In addition, FSIS identified the following limitations in enforcement actions
                               data as they relate to the risk-based inspection algorithm.

36
     The NOIE Under Deferral category is where the NOIE has been issued and the establishment has adequately responded
     to FSIS. Thus, temporarily the suspension does not go into effect, which allows the establishment to operate and
     demonstrate the effectiveness of its response.
USDA/OIG-A/24601-07-Hy                                                                                      Page 15
                   •     Stakeholders in public meetings have raised a concern regarding
                         inconsistencies in the issuance of enforcement actions that may occur
                         across FSIS regions and personnel. FSIS has a number of controls,
                         including detailed directives and notices, and training to guide
                         enforcement actions, and management controls, such as AssuranceNet, to
                         monitor field activities and help ensure that its actions are consistent
                         nationwide. There is no data that FSIS is aware of that indicates that this
                         has occurred, but FSIS will analyze its inspection data further to
                         determine if any such inconsistencies occur in different areas of the
                         country or in particular districts. It also continues to reinforce to its field
                         personnel the importance of issuing enforcement actions in a consistent
                         manner.

                   •     Not all enforcement actions are equally related to immediate food safety
                         concerns. Some enforcement actions may result from administrative
                         procedures or be related more to food wholesomeness than food safety.
                         Therefore, if using enforcement actions for risk-based inspection to better
                         protect public health, consideration should be given to ranking them
                         based on how related they are to food safety concerns.

                   Establishments that produce one or more types of raw meat or poultry
 Potential
                   products are classified into a Salmonella verification category based on the
 Limitations
                   results of recent Salmonella test sets. The categories are given different
 of Data for
                   weights in the risk control measure based upon which category an
 Salmonella
                   establishment is in. During the course of our audit, FSIS identified the
 Verification
                   following limitations in data for Salmonella verification testing.
 Testing
                   •     Current FSIS procedures allow only one product to be tested at a time per
                         establishment. Depending on the frequency of production, the time
                         needed to complete a Salmonella test set could range from two months to
                         more than a year. In low volume establishments, it can take years to
                         obtain data for each product produced.

                   •     The design of the random sample gives all products equal likelihood of
                         being tested, despite information from baseline studies and indications
                         from regulatory samples that not all products have the same likelihood of
                         testing positive for Salmonella.

                   •     The sample designs do not take into account the consumption patterns
                         across FSIS-regulated product. A product that is consumed less
                         frequently than another product and, therefore, has less potential for
                         affecting public health (because fewer people will eat it to be exposed to
                         Salmonella) has the same likelihood of being tested as a more heavily
                         consumed product.



USDA/OIG-A/24601-07-Hy                                                                         Page 16
                                 •   FSIS informs establishments in advance that Salmonella testing will
                                     occur, which could influence the activities of an establishment, biasing
                                     the results.

                                 Lm performance standards only apply to those establishments that produce
     Potential                   RTE products that are exposed to the environment subsequent to a lethality
     Limitations of              step. FSIS requires these establishments to choose one of three alternatives
     Data on the                 for controlling Lm. 37 Establishments are required to report this information to
     Control of Lm               FSIS at least annually and whenever there is a significant change in the
     in RTE                      alternative used or volume of production. However, FSIS does not have
     Products                    oversight procedures to ensure that this is done. Scores for the risk control
                                 measure are assigned based on which methods, or combinations thereof, an
                                 establishment has in place to control Lm in RTE products.

                                 FSIS identified the following limitation regarding the control of Lm in RTE
                                 product data.

                                 •   All establishments required to control Lm have not submitted the required
                                     forms describing their processes for controlling Lm, and FSIS does not
                                     verify the accuracy of the information, including the alternative. Thus,
                                     this data element is not captured, or incorrectly captured, in the algorithm
                                     and the level of inspection calculated for these plants would not consider
                                     how well the establishment controls the risk associated with Lm in RTE
                                     products. Also, it is left to the establishment to determine when to report a
                                     significant change in its operation, including the possibility of falling into
                                     a different alternative.

                                 Our fieldwork in August 2007 confirmed that this is a valid concern; we
                                 found seven of nine establishments did not submit current information (for
                                 over 2 years) on how they controlled Lm in RTE product or the volume of
                                 product they produced under each alternative. This also has a potential
                                 adverse effect on FSIS’ risk-based Lm testing program, which is based, in
                                 part, on the control methods used and production volume. In March 2007,
                                 FSIS began collecting this information electronically, as opposed to relying
                                 on paper-based forms; four of the seven establishments submitted the
                                 information electronically in 2007. If FSIS monitors this data and follows up
                                 with non-responders, the data used in the risk-based inspection calculation
                                 may be more accurate and complete. Prior to implementing risk-based
                                 inspection, FSIS should validate the accuracy and completeness of data used
                                 in calculating an establishment’s level of inspection.




37
     Under Alternative 1, the establishment uses a post-lethality treatment (which may be an antimicrobial agent) that reduces
     or eliminates microorganisms on the product and an antimicrobial agent or process that suppresses or limits the growth of
     Lm. Under Alternative 2, the establishment uses either the post-lethality treatment or antimicrobial agent or process that
     limits the growth of Lm described in Alternative 1. Under Alternative 3, the establishment relies on sanitation measures
     to control Lm.
USDA/OIG-A/24601-07-Hy                                                                                               Page 17
Potential                      Establishments that produce RTE or raw ground beef products are subject to
Limitations of                 pathogen testing programs. The testing programs considered relevant to the
Data from                      proposed risk-based inspection algorithm include RTE products tested for
Microbial                      Lm, Salmonella, and E. coli O157:H7, and raw ground beef products subject
Testing                        to tests for E. coli O157:H7. Scores for the risk control measure were
Programs                       assigned based on the number of positive samples an establishment had for
                               these pathogens. During the course of our audit, FSIS identified the following
                               limitations in microbial data as they relate to the risk-based inspection
                               algorithm.

                               •    There are lower numbers of E. coli O157:H7 samples analyzed than are
                                    scheduled. 38 There are a number of reasons why not all scheduled
                                    samples are analyzed, including that the product scheduled to be sampled
                                    at a given establishment is not being made at that point in time, or
                                    samples are damaged or lost during shipment to the FSIS laboratory. A
                                    difference between the number of samples planned and analyzed could
                                    affect the reliability of the data collection if the drop-off occurred more in
                                    one type of establishment or one location.

                               •    There is a concern whether contamination by an organism such as Lm,
                                    E. coli O157:H7, and Salmonella is uniformly distributed within and
                                    among lots of meat and poultry products. This could affect, for a given
                                    lot, the probability that a test will be positive if the lot is contaminated,
                                    and the probability that sampling one lot will find contamination if
                                    contamination is not uniform among lots.

                               •    E. coli O157:H7 sampling currently does not include beef components
                                    such as head meat, cheek meat, organ meat, and advanced meat recovery
                                    (AMR) products. 39 FSIS announced plans to expand testing to these
                                    products in October 2007.

                               •    The Salmonella verification test must be interpreted cautiously because
                                    the sampling protocols were not designed to assess the national
                                    prevalence of Salmonella in FSIS-regulated products and did not take into
                                    account the production volume. Therefore, the results do not provide a
                                    good estimate of the prevalence of Salmonella in the nation’s supply of
                                    those products tested.

                               •    Although the randomization of a sampling plan helps decrease biases, it
                                    also limits certain interpretations or conclusions that can be drawn from
                                    the data. Randomization is not adjusted for production volume, and

38
   During calendar year 2006, 72.1 percent of scheduled samples were analyzed. Samples requested from very small
   establishments are the least likely to be tested (large establishments 88.1 percent tested; small establishments 78.5 percent
   tested; very small establishments 68 percent tested).
39
   AMR technology removes muscle and other edible tissue from the bones of beef carcasses under high pressure without
   incorporating the bone. AMR machinery separates meat by scraping, shaving, or pressing the muscle and edible tissue
   away from the bones.
USDA/OIG-A/24601-07-Hy                                                                                               Page 18
                                   therefore, establishments with large production volumes are not sampled
                                   more frequently than those with smaller production volumes.
                                   Establishments producing smaller volumes, therefore, are sampled more
                                   frequently on a per volume basis than those producing larger volumes.
                                   That results in some limitations in the interpretation of the data (e.g., does
                                   not present an accurate picture of the national prevalence rate of E. coli
                                   O157:H7).

                               In a prior audit, 40 we recommended FSIS perform the necessary baseline
                               studies to define the goals, objectives, and performance measurements and
                               develop a scientific, risk-based sampling plan to include relevant factors,
                               such as individual plant volume of production and effectiveness of
                               interventions that will provide reasonable assurance that HACCP systems in
                               place are effective. In response, FSIS agreed to publish the results of baseline
                               studies on generic E. coli and Salmonella. FSIS also agreed to report the
                               results of the beef trim E. coli O157:H7 baseline program once the baseline
                               was completed, which FSIS expects to publish by the end of 2007.

        Analyses               FSIS has recognized the need to perform additional analyses on the relative
        Related to             importance of the seven components of the risk control measure, as well as
        Components             how much weight each factor should be given. Multivariate analyses are
        of the Risk            being conducted to examine how changing the weight does and should
        Control                impact the final risk control measure and how the individual components
        Measure                should be weighted in the overall risk-based inspection algorithm to
                               determine resource allocation.

                               FSIS has also recognized the need to perform analyses to examine the
                               relationships between the components of the risk control measure and the
                               relationships between the components and other indicators of performance of
                               an establishment’s food safety system. FSIS will conduct analyses to examine
                               these correlations.

                               FSIS has also recognized the importance of focusing not only on the data
        Potential
                               previously used, but also on other data that it has that could be used and data
        Limitations
                               that could possibly be available to it for use in the future. Other possible
        of Other
                               components that have been considered and their potential limitations are
        Possible
                               listed below.
        Components
                               •   The age of an establishment may influence an establishment’s pathogen
                                   performance. Older establishments might use older production
                                   technology or might not have adequate personnel coverage for pathogen
                                   control. Alternatively, newer establishments may not have experienced
                                   staff or adequate training programs to manage food safety issues. On the
                                   basis of the survey data for slaughter establishments, a strong single
                                   predictor of pathogen results was the percentage of establishment space
                                   that is older than 20 years of age.

40
     Oversight of Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
USDA/OIG-A/24601-07-Hy                                                                                        Page 19
                                 •   Whether establishment square footage might also influence performance
                                     on pathogen tests was explored by the Research Triangle Institute. 41 In its
                                     analysis of slaughter establishments, the establishment production space
                                     and age were interdependent, but production space was not an important
                                     characteristic associated with performance on pathogen tests.

                                 •   The number of employees may influence an establishment’s performance
                                     on pathogen tests because it could be related to providing adequate
                                     personnel coverage for food safety quality assurance programs and
                                     production areas. The number of employees will be highly variable
                                     among establishments. The number of employees may not be an
                                     independent variable but interdependent with other variables such as
                                     HACCP training and the size of establishment production area.

                                 •   In food-handling operations, chemical sanitizers are used as rinses,
                                     sprayed onto surfaces, or circulated through equipment in clean-in-place
                                     operations. In certain applications the chemicals are foamed on a surface
                                     or fogged into the air to reduce airborne contamination. The extent to
                                     which an establishment uses chemical sanitizers in its food processing
                                     area could affect its performance on pathogen tests.

Data from the                    FSIS works with the Center for Disease Control and Prevention (CDC) to be
Centers for                      able to better make associations between the products that FSIS regulates and
Disease Control                  the illnesses reported on by CDC. To obtain CDC’s perspectives, FSIS
and Prevention                   provided CDC’s Enteric Diseases Epidemiology Branch with information
                                 related to risk-based inspection. In addition, CDC officials attended the FSIS’
                                 public meeting on attribution in April 2007.

                                 FSIS has requested access to data from food-borne disease outbreaks as
                                 collected and compiled by CDC. FSIS plans to compare the human illness
                                 data from the CDC with the expert elicitation data. Both sets of data will be
                                 used to better allocate FSIS inspection resources to specific products that
                                 pose more risk to the public health. FSIS believes this work will provide
                                 valuable information to enhance existing attribution and severity data.

                                 FSIS intends to use non-FSIS data to supplement FSIS data to develop
Use of Non-FSIS                  effective risk management strategies. The use of data from industry, as well
Data                             as other sources, could fill important data gaps. NACMPI has also agreed that
                                 supplementing FSIS’ data with data from interested stakeholders could
                                 maximize the agency’s ability to safeguard meat and poultry products.
                                 Specifically, NACMPI has recommended that FSIS explore ways that
                                 industry, academia, and other stakeholders can transfer data to FSIS,
                                 including incentives for participation.

41
     The Research Triangle Institute is an independent, nonprofit organization that serves clients in government, industry,
     academia, and public service throughout the United States and abroad. The Food and Agriculture Policy Program at the
     Research Triangle Institute has been conducting analyses of the economic effects of food safety and nutrition regulations
     for USDA for more than 15 years.
USDA/OIG-A/24601-07-Hy                                                                                              Page 20
                                 FSIS has previously used non-FSIS data in such ways as risk assessments and
                                 economic impact analyses. However, most of the data submitted and used by
                                 FSIS has been aggregate data, not specific to individual establishments. A
                                 primary focus of risk-based inspection relates to the degree of process control
                                 exhibited by individual establishments and allocating an appropriate level of
                                 inspection by FSIS in that establishment. FSIS has recognized that one
                                 concern for using non-FSIS data is to assure the data are validated and
                                 reliable.

     FSIS Actions to             In June 2007, FSIS identified an increased number of E. coli O157:H7
     Combat                      positive tests in beef, as well as a larger number of recalls and illnesses
     E. coli O157:H7             caused by this pathogen than in recent years. In response, FSIS immediately
     in Raw Beef                 increased the number of tests of ground beef for E. coli O157:H7 by more
     Products                    than 75 percent in July and began planning for a new followup testing
                                 program for Federally inspected beef plants that had positive tests for E. coli
                                 O157:H7. In October 2007, after a series of large recalls, FSIS announced
                                 that the agency was accelerating implementation of initiatives originally
                                 scheduled for Spring 2008 to respond to concerns about increased positives
                                 of E. coli O157:H7. Lessons learned from a number of recent recalls
                                 emphasized the need for FSIS to further strengthen its policies and programs.
                                 The agency realized that to make risk-based inspection in processing
                                 establishments more effective, FSIS needed to strengthen its data that will
                                 support that system. In October 2007, FSIS announced the following
                                 initiatives targeting Federally inspected plants that produce raw beef
                                 products.

                                 •   Testing and analysis of trim. Based on preliminary data from the
                                     agency's beef trim baseline and scientific literature indicating that
                                     contamination of trim is related to contamination of ground beef, FSIS
                                     began trim testing in March 2007. FSIS believes that by testing earlier in
                                     the production chain to identify contaminated beef trim intended for
                                     ground beef, this source will be prevented from contaminating the ground
                                     beef available to consumers. FSIS believes this also gives the agency
                                     more data to analyze in determining and implementing the most
                                     appropriate actions to reverse upward trends.

                                 •   Verifying control of E. coli O157:H7. FSIS notified the beef industry
                                     that, as of November 2007, all beef plants will be expected to verify that
                                     they are effectively controlling E. coli O157:H7 during slaughter and
                                     processing. 42 The agency also provided the industry specific examples of

42
     In October 2002, FSIS advised establishments to reassess their HACCP plans for potential contamination of raw beef
     products with E. coli O157:H7. According to FSIS officials, since this announcement, the agency focused on whether
     establishments have controls in place. FSIS personnel determined whether the establishment (1) reassessed its operations
     or (2) identified controls. FSIS officials explained that the verification efforts announced in October 2007 will evaluate
     the underlying support for an establishment’s controls to prevent potential contamination of raw beef products with
     E. coli O157:H7.
USDA/OIG-A/24601-07-Hy                                                                                               Page 21
                         minimum controls that would meet the minimum criteria for a
                         well-controlled process. Identifying which establishments achieve the
                         minimums, and which establishments do not, will provide FSIS the
                         critical information on establishments with vulnerabilities.

                   •     New checklist for verifying control. FSIS inspection program personnel
                         will review both suppliers and processors based on a new checklist, once
                         they complete specialized training that was scheduled to begin the week
                         of October 29, 2007. Data from the checklists will be completed in
                         November and will be updated quarterly to help the agency more quickly
                         identify significant changes in establishments’ production controls and
                         ensure the companies take corrective action. FSIS will analyze the
                         checklist data and use them to adjust programs or policies as needed.

                   •     Testing more domestic and imported ground beef components. FSIS
                         will begin testing materials that are used as components in raw ground
                         beef, in addition to the beef trim already tested, which is the primary
                         component. FSIS is also requiring countries whose beef is imported to the
                         United States to conduct the same sampling or an equivalent measure.

                   •     More rapid recalls. FSIS now takes into account a broader, more
                         complete range of evidence when evaluating whether to seek a recall or
                         take regulatory action. This gives the agency a credible approach to more
                         rapidly taking action when certain types of evidence are available. In two
                         recent cases, FSIS acted upon epidemiological evidence that linked
                         illness to opened, FSIS-inspected product found in consumers’ freezers.

                   •     Targeting routine testing. In January 2008, FSIS will begin routine
                         targeted sampling for E. coli O157:H7 at slaughter and grinding facilities.
                         Currently, all plants have an equal chance of being tested. Under this new
                         verification testing program, FSIS will test larger volume operations more
                         frequently than in the past. Data from the checklists will be used to
                         determine testing frequency for establishments.

                   •     Ensuring safety of imported beef products. FSIS notified countries that
                         export raw beef product to the United States of new policies and
                         programs and is working with them to ensure they implement the same or
                         equivalent measures to protect the public from E. coli O157:H7 risks.

Decisions for      Without proper consideration and evaluation of these and other data and
Risk-Based         structural limitations, FSIS cannot yet confidently demonstrate in a
Inspection         transparent and proactive manner that it has adequately considered all the
                   potential challenges it faces in implementing a data driven, scientifically
                   based risk-based inspection system. FSIS should ensure the basis for
                   decisions made regarding the components included in the risk-based
                   inspection program are thoroughly documented and evaluated with
                   limitations mitigated and be transparent to all stakeholders.

USDA/OIG-A/24601-07-Hy                                                                     Page 22
FSIS’ Plan to      FSIS intended to create a plan for evaluating risk-based inspection in the 254
Evaluate Risk-     establishments included in the pilot program. However, FSIS did not finalize
Based Inspection   its evaluation plan because legislation delayed the pilot risk-based inspection
                   program. Therefore, OIG was unable to assess the adequacy of FSIS’ plan.

Recommendation 4

                   As FSIS moves forward to develop and implement risk-based inspection,
                   conduct and document analyses that support the data windows selected for
                   each of the components in the risk control measure, which assesses an
                   establishment’s ability to control risk.

                   Agency Response.

                   In the response to the draft report, dated November 26, 2007, FSIS stated that
                   in developing its risk-based inspection technical paper, the DAIG is
                   conducting a number of analyses to determine the temporal relationships
                   among the factors they are considering for use in a risk-based algorithm.
                   These analyses will provide information regarding an appropriate data
                   window for use in risk-based inspection. That is, by examining the
                   relationships in time among food safety events, FSIS can determine what
                   amount of data is needed to develop an accurate characterization of an
                   establishment's food safety controls. Such analysis has begun on the
                   relationship between NRs and positive Salmonella results. Similar analyses
                   will be conducted to examine the temporal relationships between other
                   components of a risk-based algorithm. The results of those analyses will be
                   used, in conjunction with other considerations such as availability of data, to
                   determine the most appropriate data window to be used. The rationale and
                   analyses underlying the decision will be presented in a technical plan in
                   support of risk-based inspection to ensure transparency. The risk-based
                   inspection technical report will be made final and available to stakeholders,
                   following review by NACMPI and by peer reviewers, by March 17, 2008
                   (see Exhibit I).

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 5

                   Ensure that the basis for decisions made regarding the components included
                   in the risk-based inspection program are thoroughly documented and
                   evaluated with limitations mitigated and are transparent to all stakeholders.




USDA/OIG-A/24601-07-Hy                                                                   Page 23
                        Agency Response.

                        In the supplemental response to the draft report, dated November 30, 2007,
                        FSIS stated the agency is developing a technical report that will outline, in
                        detail, the basis for decisions made regarding the components included in the
                        risk-based inspection program. The report will outline the limitations of the
                        data, and how those limitations affect the use of the data in risk-based
                        inspections. All effort will be made to decrease the limitations in the data,
                        including incorporating data analysis plans into directives and notices to
                        emphasize the importance of the data, and training. (However, it is important
                        to note that all data has limitations, the limitations must be stated and the
                        subsequent uncertainty resulting from those limitations should be discussed,
                        but not all limitations preclude the use of data.) The technical paper will be
                        peer reviewed according to OMB’s peer review guidelines, shared with
                        stakeholders, including NACMPI, and modified in response to comments
                        prior to implementation of risk-based inspection in processing. The technical
                        report will be made final and available to stakeholders, following review by
                        NACMPI and by peer reviewers, by March 17, 2008 (see Exhibit J).

                        OIG Position.

                        We accept FSIS’ management decision.

Recommendation 6

                        Develop a process to obtain more accurate, verifiable production data (e.g.,
                        pounds of product produced by product type) and regularly update the data
                        from FSIS-regulated establishments.

                        Agency Response.

                        In the response to the draft report, dated November 26, 2007, FSIS agreed
                        that production data, including volume of pounds of product produced by
                        product type, is critical and that FSIS needs to account for this information in
                        the design of its verification activity. Consequently, through the new PHIS,
                        FSIS expects to implement a mechanism for inspection program personnel to
                        identify specific production records upon which such information is based,
                        and to provide the establishment management an opportunity to review the
                        collected information. Collection of such information in this manner provides
                        FSIS a means to verify the source and accuracy of the information.

                    FSIS took steps to collect information on raw beef products in this manner
                    with FSIS Notice 65-07 (regarding control of E. coli 0157:H7) and will
                    assess the process to ensure that it is refined and enhanced in order to be
                    effective. Until PHIS is fully implemented, FSIS will repeat the collection of
                    verifiable volume data begun with FSIS Notice 65-07 at a frequency
                    determined by analysis of the initial results and changing data needs. Also
                    before PHIS is fully implemented, FSIS will begin collecting verifiable
USDA/OIG-A/24601-07-Hy                                                                    Page 24
                   volume data on products other than raw beef. Once implemented, the PHIS is
                   expected to prompt inspection program personnel to regularly verify that the
                   collected information remains accurate.

                   A prototype for domestic inspection within PHIS will run in a test
                   environment during the third quarter of calendar year 2008 to selected users.
                   The nationwide production readiness for PHIS with the domestic module is
                   currently scheduled for the second quarter of calendar year 2009 (see
                   Exhibit I).

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 7

                   Determine why NRs were not correctly accounted for (i.e., one counted twice
                   and one omitted) when calculating an establishment’s level of inspection.
                   Implement the necessary controls to ensure that these types of errors do not
                   occur and that data are complete and accurately processed.

                   Agency Response.

                   In the response to the draft report, dated November 26, 2007, FSIS stated that
                   the two errors identified by OIG were human errors on the part of inspection
                   program personnel. Further, PBIS does not have automated functions to
                   check for such errors and they were missed during the manual error checks
                   during the single calculation of levels of inspection for the planned
                   "prototype" risk-based inspection establishments. The PHIS will include
                   constraints on data entry to better prevent the erroneous duplication of NRs
                   and other information.

                   FSIS will include in its technical plan for risk-based inspection that prior to
                   implementing any risk-based inspection algorithm, it will check that the
                   correct data is being processed and that it is being processed accurately. That
                   check will include pulling, for a subset of the establishments, the individual
                   data sets and independently calculating the values for those establishments to
                   ensure that any automated algorithm is accurately processing the data. In
                   addition, FSIS will further emphasize to its personnel the importance of
                   having the data input correctly in its system by, for example, including
                   information on how the data being collected will be analyzed and used in its
                   directives and notices. Also, FSIS will conduct extensive performance and
                   functional testing of PHIS during user acceptance testing to ensure that the
                   system operates as designed. The testing will be derived from the business
                   processes, scenarios, and use cases defined during the Requirements Phase of
                   the project.


USDA/OIG-A/24601-07-Hy                                                                   Page 25
                   A prototype for domestic inspection within the PHIS will run in a test
                   environment during the third quarter of calendar year 2008 to selected users.
                   The nationwide production readiness for PHIS with the domestic module is
                   currently scheduled for the second quarter of calendar year 2009. The
                   risk-based inspection technical report will be made final and available to
                   stakeholders, following review by NACMPI and by peer reviewers, by
                   March 17, 2008 (see Exhibit I).

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 8

                   Develop and implement at least an annual process to verify how
                   establishments control Lm in RTE product and that establishments report
                   when there is a significant change in the method they use to control Lm or
                   volume of product they produce.

                   Agency Response.

                   In the response to the draft report, dated November 26, 2007, the agency
                   stated that the FSIS headquarters personnel will incorporate information
                   currently captured on the industry-submitted 10,240 form regarding Lm
                   controls into the PHIS establishment profile and by September 2008, FSIS
                   will have inspection program personnel collect and input this information in
                   the PHIS. By having inspection program personnel collect such information,
                   FSIS will have a built-in mechanism to verify that the information is current,
                   accurate, and verifiable.

                   A prototype for domestic inspection within the PHIS will run in a test
                   environment during the third quarter of calendar year 2008 to selected users.
                   The nationwide production readiness for PHIS with the domestic module is
                   currently scheduled for the second quarter of calendar year 2009 (see
                   Exhibit I).

                   OIG Position.

                   We accept FSIS’ management decision.

Recommendation 9

                   As FSIS moves forward to develop and implement risk-based inspection,
                   include the enforcement action NOIE Under Deferral in the calculation.




USDA/OIG-A/24601-07-Hy                                                                  Page 26
                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS stated that
                    the agency is considering a number of potential components in a risk-based
                    algorithm and evaluating the data on those components. One of those
                    components is data on enforcement actions. FSIS agrees that enforcement
                    actions are important indicators that there has been a loss of food safety
                    controls at an establishment, and provided that the analyses do not indicate
                    that the data are inappropriate for use in an algorithm, this and other
                    enforcement actions would be included in a risk-based algorithm. The factors
                    to be used in the algorithm will be outlined in the risk-based inspection
                    technical report. The risk-based inspection technical report will be made final
                    and available to stakeholders, following review by NACMPI and by peer
                    reviewers, by March 17, 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 10

                    Prior to implementation, validate the accuracy of the risk-based inspection
                    data (e.g., species, product type, public health NRs, and control of Lm in RTE
                    product) used for calculating an establishment’s level of inspection.

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS stated the
                    agency will conduct extensive performance and functional testing of PHIS
                    during user acceptance testing to ensure that the system operates as designed.
                    The testing will be derived from the business processes, scenarios, and use
                    cases defined during the requirements phase of the project.

                    A prototype for domestic inspection within the PHIS will run in a test
                    environment during the third quarter of calendar year 2008 to selected users.
                    The nationwide production readiness for PHIS with the domestic module is
                    currently scheduled for the second quarter of calendar year 2009 (see
                    Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.




USDA/OIG-A/24601-07-Hy                                                                    Page 27
Section 2. FSIS’ Infrastructure to Control and Oversee Regulated Activities

                     Currently, FSIS does not have adequate management control processes or an
                     information technology (IT) system in place to support a timely, reliable,
                     risk-based inspection program. Prior audits have reported deficiencies in the
                     basic building blocks of oversight and inspection activities used to verify
                     HACCP food safety systems, as well as the IT systems used to support those
                     processes. FSIS has recognized the current processes are error-prone and are
                     not efficient towards effective delivery of timely, accurate data. On
                     September 26, 2007, FSIS awarded a contract to develop the PHIS that is to
                     provide the means to implement an effective food safety system that can
                     collect, assess, and respond to hazards and risks. According to the contract,
                     the PHIS is to provide the capabilities to mine and analyze inspection,
                     surveillance, and investigative data; predict hazards and vulnerabilities;
                     communicate or report analysis results; and target resources to prevent or
                     mitigate the risk of food-borne illness and threats to the food supply. The
                     domestic inspection module is targeted for implementation in June 2008; a
                     predictive analytics and modeling component will be deployed around the
                     same time.

                     FSIS has invested considerable time and effort into building a foundation for
                     implementing a risk-based inspection program. The objective of such a
                     modified inspection system is to focus inspection resources on those
                     establishments that pose the greatest food safety risk, improving FSIS’ ability
                     to protect public health while maintaining the necessary level of inspection at
                     all Federally-regulated establishments.

                     FSIS’ original risk-based inspection strategy combined what it believed to be
                     the best available data with the best expert judgment that was then available.
                     However, FSIS has received comments and criticisms from a number of
                     external sources (e.g., NACMPI and public stakeholder meetings) regarding
                     FSIS data and its methodology for ranking the potential risks across different
                     establishments. FSIS continues to consider this input in refining its approach
                     to risk-based inspection.

                     As FSIS moves forward, its methodologies will need to be refined and
                     improved. FSIS has already identified many areas for potential refinement
                     and improvements; some are already in process and others are still planned
                     for the future. Building a solid foundation for shifting to a risk-based
                     environment that focuses inspection resources on improving FSIS’ ability to
                     protect public health lies in a process that uses (1) science and statistical
                     analysis based on high-quality data that focus on risk analysis and prevention;
                     (2) effective integration of FSIS’ data management systems; and (3) strong IT
                     and management controls.



USDA/OIG-A/24601-07-Hy                                                                     Page 28
   Finding 3                    FSIS Needs to Strengthen Security Over IT Resources and PBIS
                                Application Controls

                                In fiscal year 2003, we issued our report on the security of IT resources at
                                FSIS. 43 This report identified weaknesses in the agency’s ability to
                                adequately protect its IT resources from potential disruptions. During our
                                current audit, we determined to what extent the agency had implemented the
                                agreed upon corrective actions, and if implemented, to assess the
                                effectiveness of these actions.

                                In fiscal year 2005, we issued our report on FSIS’ PBIS. 44 The objective of
                                this audit was to evaluate whether FSIS had adequate and effective controls
                                over the input, processing, and output of PBIS data. FSIS relies on PBIS to
                                manage its inspection activities. Overall, we found that FSIS had not
                                implemented adequate controls to ensure the integrity of PBIS data. We
                                reported that this ultimately may affect FSIS’ ability to adequately manage its
                                inspection activities and to ensure that the nation's commercial supply of
                                meat, poultry, and egg products is safe and wholesome.

                                This audit confirmed that vulnerabilities continue to expose FSIS systems to
                                unnecessary risks and that access (physical and logical) and application
                                controls need improvement. Strengthening controls in these areas is critical to
                                developing and implementing a reliable, data-driven risk-based inspection
                                program that can produce information timely and accurately.

                                As a result of the 2003 IT security audit, FSIS immediately moved forward to
Security Over IT                correct and/or mitigate the high and medium vulnerabilities45 noted.
Resources                       However, the agency was not diligent in continuing to scan its infrastructure
                                on a timely basis and to correct or mitigate noted vulnerabilities. As a result,
                                FSIS’ servers, workstations, and network devices are unnecessarily
                                vulnerable to attack and penetration, placing production data at risk. During
                                our current audit, we received a related hotline complaint alleging that FSIS
                                had not adequately mitigated vulnerabilities, patched systems, and scanned
                                all required IT equipment. Also, FSIS had incorrectly reported its security
                                status to the Department. We incorporated the allegations into the scope of
                                our current audit and determined that the complaint was valid. FSIS
                                management attributed the problems found to a lack of resources, poor
                                communications within the agency, and the unique nature of the FSIS
                                infrastructure. 46 As a result, the data residing on the FSIS IT infrastructure


   43
      Security Over the IT Resources at FSIS, Audit Report No. 24099-01-FM, August 2003.
   44
      FSIS Application Controls—Performance Based Inspection System, Audit Report No. 24501-01-FM, November 2004.
   45
      High risk vulnerabilities are those that provide access to the computer, and possibly the network of computers. Medium
      risk vulnerabilities are those that could provide this access if exploited.
   46
      Distributed processing, remote locations, and lack of high speed communication.
   USDA/OIG-A/24601-07-Hy                                                                                         Page 29
                      are at risk of potential compromises to their availability, confidentiality, and
                      integrity.

Physical/Logical      We found that FSIS had not developed and implemented policies and
Access Controls       procedures for granting access to the headquarters computer facility. As a
over Networks and     result, FSIS could not ensure that only authorized employees have access to
Databases             the computer facility, and that security measures were taken to protect
                      systems and related supporting infrastructures against threats associated with
                      the computer facility’s physical environment. We noted that while a card key
                      access system was installed to track employee’s access FSIS was not
                      reviewing or updating the computer facility access list. Therefore, employees
                      that no longer required access or required restricted access (i.e., left the
                      agency or changed job responsibilities) remained on the list as having access
                      to the facility.
Noncompliance with    Although FSIS had completed the required security plans in response to our
Federal Information   prior recommendations, it had not ensured the plans were appropriately
Security              updated on an annual basis. We noted that the plans were dated August 2004,
Requirements          and had not been updated since that time. FSIS procedures incorrectly
                      allowed the plan to be updated every 3 years instead of annually as required
                      by OMB and Departmental guidance.

PBIS Application      Our prior audit identified deficiencies in FSIS’ controls over the input,
Controls              processing, and output of PBIS data. During our current audit, we determined
                      to what extent the agency had implemented the agreed to corrective actions,
                      and if implemented, to assess the effectiveness of these actions. Overall, we
                      concluded that corrective actions have yet to be initiated on all prior
                      deficiencies identified. FSIS has not yet developed and effectively
                      implemented policies and procedures to:

                      •     Restrict access to only authorized users and ensure that legitimate users
                            had access to only that information needed to perform their job functions.

                      •     Provide reasonable assurance that only authorized and allowable data
                            were entered into PBIS. FSIS relied on notices, directives, and user
                            training instead of written policies and procedures. However, FSIS was
                            not verifying that all users had completed training. As of June 2007, over
                            1,000 PBIS users had not completed IT training.

                      •     Provide proper segregation of duties over the PBIS system development,
                            testing, and production environments. In the agency response to our prior
                            report, FSIS stated it would reorganize the IT structure to achieve
                            separation of duties. The FSIS Plan of Action and Milestones, dated
                            August 2005, states that FSIS would “establish a policy to ensure the
                            proper segregation of duties over the PBIS system development, testing,
                            and production environment.” The status of this action was shown as


   USDA/OIG-A/24601-07-Hy                                                                    Page 30
                                      “completed” as of September 30, 2005. During this review we requested
                                      these policies and were informed by FSIS that they did not exist.

                                 •    Improve the timeliness and completeness of PBIS data to include
                                      appropriate synchronization 47 between headquarters and field operations.
                                      Incomplete, untimely data may impair analysis and impact timely
                                      identification of a problem establishment.

                                 On August 23, 2007, we provided these concerns to FSIS. We did not make
                                 additional recommendations because FSIS had not effectively implemented
                                 our prior recommendations. On September 18, 2007, FSIS provided detailed
                                 responses on the agency’s actions to address the weaknesses in IT security
                                 and access and application controls (see Exhibit E). FSIS provided an update
                                 of the actions they plan to take on IT security and access controls on October
                                 19, 2007 (see Exhibit D).

                                 In September 2007, FSIS awarded a contract to build the agency’s new PHIS
                                 in order to better integrate and consolidate its numerous applications that
                                 collect information on activities to ensure the safety of meat, poultry, and egg
                                 products. FSIS plans to have a functional domestic inspection module ready
                                 for limited deployment in April 2008 with full production implementation
                                 scheduled for August 2008. The sub-modules currently identified for the
                                 domestic inspection module include: in-plant inspection activity, food safety
                                 assessments, laboratory sample scheduling, in-plant data and data from other
                                 sources, reporting, and predictive modeling and analysis (see Exhibit A). As
                                 FSIS moves forward with development of risk-based inspection, the agency
                                 should institute the appropriate oversight and control during the development
                                 of critical IT systems such as PHIS.

Recommendation 11

                                 Institute the appropriate oversight and control during the development of
                                 critical IT systems needed to support risk-based inspection.

                                 Agency Response.

                                 In the response to the draft report, dated November 26, 2007, FSIS stated that
                                 the agency, with the contractor, is developing a project management plan.
                                 Certified agency project managers will assert appropriate project control
                                 using American National Standards Institute (ANSI) earned value
                                 management standards to measure and control costs and schedule. The PHIS
                                 will be developed using standard software development life cycle practices.
                                 The first version of the project management plan will be developed by
                                 December 31, 2007 (see Exhibit I).



47
     Inspection data at an establishment should be uploaded to the main data warehouse on a daily, or at least weekly, basis.
USDA/OIG-A/24601-07-Hy                                                                                               Page 31
                              OIG Position.

                              We accept FSIS’ management decision.


Finding 4                     FSIS Needs to Further Enhance Controls Concerning Food Safety
                              Assessments

                              Since June 2000, we have recommended that FSIS implement a system of
                              oversight for HACCP plans that establishments develop. In response, FSIS
                              initiated the use of food safety assessments to evaluate these controls. In a
                              concept paper for measuring establishment risk control for risk-based
                              inspection, dated July 2006, FSIS recognized that food safety assessments are
                              the agency’s best evidence regarding the design of an establishment’s food
                              safety system. However, FSIS has not fully incorporated this fundamental
                              building block for assessing establishment risk.

                              This audit confirmed that FSIS had not completed food safety assessments at
                              all processing establishments, had not established a process for periodically
                              reassessing establishments’ food safety assessments, and does not have
                              procedures in place to ensure timely followup in response to food safety
                              assessment findings. We also question whether prior assessments fully
                              analyzed food safety risks based on recent recalls of ground beef product
                              potentially contaminated with E. coli O157:H7.

                              FSIS developed a risk-based inspection program that estimated establishment
Food Safety                   risk; however, they had not performed food safety assessments of HACCP
Assessments Not               systems in all meat and poultry processing establishments. This occurred
Completed for All             because the FSIS national office did not establish management controls to
Establishments                prioritize, schedule, and analyze food safety assessments, which prevented
                              the agency from including all of the results in its estimate of establishment
                              risk. As a result, FSIS has less assurance that consumers are protected from
                              adulterated meat and poultry products.

                              As of June 2007, FSIS had not completed food safety assessments at 485 of
                              the more than 5,000 meat and poultry processing establishments. 48 According
                              to an FSIS official, all except one district office were instructed to complete
                              food safety assessments for all establishments that have yet to have one
                              completed by September 30, 2007. 49 In addition, FSIS had not established a
                              process to periodically reassess establishments’ food safety systems.



48
   FSIS provided OIG with establishment listings that originated from each district office. Because each district office did
   not provide its listing using the same format, we were unable to confirm the completeness of the number provided as to
   the total number of meat and poultry processing establishments.
49
   The Alameda District Office, which inspects over 500 establishments, was given until December 31, 2007, to complete
   its food safety assessments due to the large amount of establishments within its district.
USDA/OIG-A/24601-07-Hy                                                                                            Page 32
                             In June 2000, 50 OIG recommended that FSIS implement a system of
                             oversight concerning the hazard analyses and HACCP plans that
                             establishments developed. The food safety assessment process evolved in
                             response to OIG’s recommendation that FSIS assess the completeness of
                             HACCP plans. In a 2003 audit, 51 OIG recommended that FSIS develop a
                             time-phased plan for completing its reviews of HACCP plans, which
                             numbered more than 5,000 at the time. In addition, OIG recommended that
                             FSIS develop a periodic review program for reassessing HACCP plans every
                             one to two years. FSIS responded that it could not conduct food safety
                             assessments at all 7,500 establishments; however, it agreed to complete food
                             safety assessments at the 2,500 establishments where they were most needed,
                             by 2005.

                             FSIS has agreed to develop and implement criteria for prioritizing the
                             scheduling of food safety assessments and to conduct periodic reevaluations
                             of an establishment’s food safety system. We discussed the concern that food
                             safety assessments had not been completed for all establishments and our
                             recommendations in an issue paper to FSIS on August 23, 2007. FSIS
                             provided its response on September 18, 2007 (see Exhibit C).

Followup                     As part of our fieldwork, we visited 15 establishments to help us assess FSIS’
Needed on                    oversight of food safety systems. We obtained the food safety assessments
Food Safety                  for the 15 establishments and determined that each addressed the elements
Assessment                   listed in FSIS directive; 52 however, we identified certain issues related to the
Findings                     control of E. coli O157:H7 in ground beef products that appeared to require
                             followup action. However, the FSIS procedure did not provide guidance on
                             actions to take to followup on food safety assessment findings.

                             A 2002 Federal Register Notice required all establishments to reassess their
                             HACCP plans for the risk of E. coli O157:H7 contamination in their raw beef
                             products. 53 FSIS Notice 44-02 instructed inspection personnel to perform
                             verification procedures on E. coli O157:H7 reassessments. This FSIS Notice
                             was the reason FSIS conducted the food safety assessments in 6 of the 15
                             establishments we visited. For these, we reviewed the food safety
                             assessments to determine whether they were compliant with FSIS Notice
                             44-02. These six food safety assessments were performed from April 2003 to
                             January 2007. In four of the food safety assessments, we noted six issues that
                             appear to require followup action.

                             •   Two found that establishments did not adequately reassess their HACCP
                                 plans based on requirements in the Federal Register Notice.

50
   Implementation of the HACCP, Audit Report No. 24001-03-At, June 2000.
51
   Oversight of Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
52
   FSIS Directive 5000.1, Verifying an Establishments Food Safety System, Revision 2, Amendment 1, July 18, 2006.
53
   Large establishments were to reassess their HACCP plans for E. coli O157:H7 by December 6, 2002; small
   establishments were required to perform this reassessment by February 4, 2003; and very small establishments were to
   accomplish this by April 7, 2003.
USDA/OIG-A/24601-07-Hy                                                                                       Page 33
                    •    Two identified that establishments did not verify that suppliers’ E. coli
                         O157:H7 specifications were being met. In December 2004, FSIS
                         completed a food safety assessment at one of these establishments and
                         identified that the establishment did not verify supplier specifications.
                         Subsequently, FSIS conducted another food safety assessment in
                         December 2005 because a product sample tested positive for E. coli
                         O157:H7. This assessment again found that the establishment was not
                         verifying supplier specifications, as identified in the first food safety
                         assessment.

                    •    Two of the food safety assessments noted inconsistencies in the
                         establishments’ HACCP plans. It was unclear whether E. coli O157:H7
                         was a hazard likely to occur based on information in the food safety
                         assessments.

                    We requested additional information from FSIS officials to determine
                    whether FSIS performed followup work for the issues we identified. During
                    our audit fieldwork, FSIS only provided a response describing their followup
                    actions for the establishment that did not verify supplier specifications. In
                    response to this finding in December 2005, FSIS issued the establishment an
                    NR. The establishment then provided FSIS with a verification plan that
                    closed the NR. This same establishment was one of the establishments that
                    did not clearly identify E. coli O157:H7 as a hazard likely to occur. FSIS
                    needs to implement procedures to ensure that sufficient, timely followup
                    work is performed on the remaining issues identified and for all other
                    findings that FSIS documents in food safety assessments.

Recommendation 12

                    Develop and implement criteria for prioritizing the scheduling of food safety
                    assessments.

                    Agency Response.

                    In the response dated September 18, 2007, FSIS agreed that public health
                    would be better served by a transparent food safety assessment scheduling
                    system that considers establishment food safety risk. FSIS determined it
                    prudent to conduct recurring food safety assessments in all establishments on
                    a pre-determined cycle, and its intention is to conduct a food safety
                    assessment in every establishment at least once every 4 years. By
                    January 1, 2008, FSIS will complete an analysis of past “for-cause” food
                    safety assessments and project what to expect in 2008. This will be the basis
                    for both allocating a “target” number of “not for cause” food safety
                    assessments to be conducted in 2008, and for projecting the number of food
                    safety assessments (two types) FSIS might conduct in 2009 and beyond.



USDA/OIG-A/24601-07-Hy                                                                   Page 34
                    The prioritization process for “not-for-cause” food safety assessments will
                    take the form of a decision tree that each District Manager is expected to
                    consult as he/she schedules food safety assessments in 2008 and beyond. This
                    decision tree will consider the primary pathogens of public health concern
                    (E. coli O157:H7, Lm, and Salmonella), establishment activities and
                    production volumes, inspection findings, and other risk-management
                    considerations. FSIS also expects to conduct some “not-for-cause” food
                    safety assessments annually for processes of special concern (e.g., specified
                    risk material control (SRM)). FSIS expects to post the “not-for-cause” food
                    safety assessment prioritization plan to the FSIS web page by July 2008 (see
                    Exhibit C).

                    In the response to the draft report, dated November 26, 2007, FSIS stated that
                    the 4-year cycle used to schedule food safety assessments was based on
                    resource availability and estimates regarding food safety assessments needed
                    to be performed "for cause." FSIS is currently developing a risk-based
                    approach to prioritize food safety assessments that will be outlined in the
                    risk-based inspection technical paper. The risk-based inspection technical
                    report will be made final and available to stakeholders, following review by
                    NACMPI and by peer reviewers, by March 17, 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 13

                    Develop and implement criteria for conducting periodic reevaluations of an
                    establishment’s food safety system to assess its progress after an initial food
                    safety assessment.

                    Agency Response.

                    In the response dated September 18, 2007, FSIS stated that the current plans
                    for the domestic inspection system address this recommendation with a
                    procedure to be conducted annually by each inspector-in-charge to review
                    each establishment’s latest food safety assessment as part of the annual
                    reassessment verification procedure. If the inspector-in-charge documents
                    any changes, an alert will be sent to the frontline supervisor who then could
                    decide to address the issue at his/her level or to elevate it to the district office
                    which may decide to send out an EIAO for review. FSIS issued Notice 64-07,
                    Scheduling Food Safety Assessments and Intensified Verification Testing, on
                    October 12, 2007. This Notice requires that a food safety assessment be
                    scheduled within 30 days of an Lm FSIS positive sample or an E. coli
                    O157:H7 positive sample. These requirements will be built into the domestic
                    inspection system.


USDA/OIG-A/24601-07-Hy                                                                         Page 35
                        Also, the new domestic inspection system will have the ability to use
                        inspection verification data at all levels (field, team, district, headquarters) to
                        establish trends and direct verification activities where needed (e.g., multiple
                        sanitation performance standard noncompliance to generate a food safety
                        assessment).

                        FSIS believes that risk-based daily inspection and verification activities,
                        coupled with a risk-prioritized food safety assessment scheduling system
                        (Recommendations 12 and 14), will ensure continuous feedback on
                        establishment risk controls (see Exhibit C).

                        OIG Position.

                        We accept FSIS’ management decision.

Recommendation 14

                        Develop and implement a system to track changes at an establishment over
                        time and determine which changes would trigger FSIS to conduct a food
                        safety assessment at an establishment prior to its periodic reevaluation.

                        Agency Response.

                        In the response dated September 18, 2007, FSIS agreed that a critical feature
                        of the new food safety assessment system will be its ability to interact with
                        the PBIS replacement system. Like the current PBIS system, the PBIS
                        replacement system is the primary means by which FSIS tracks changes at
                        establishments over time. A system will be developed by August 2008 that
                        monitors the PBIS replacement system for significant changes in
                        establishment characteristics, inspection findings, and other information. The
                        system will also flag establishments for which food safety assessments might
                        be in order using a set of criteria that will consider such things as changes in
                        noncompliance rates, changes in the types or quantities of products produced,
                        and establishment start-ups after a prolonged period of inactivity. This flag
                        would alert the district office to the possible need for a food safety
                        assessment, but it would be the prerogative of the district manager and staff
                        about how this flagged establishment should fit into their prioritized food
                        safety assessment schedule. FSIS will fully implement the system as part of
                        the new public health system (see Exhibit C).

                    In the supplemental response to the draft report, dated November 30, 2007,
                    FSIS stated that the agency fully intended to carefully track its execution on
                    an ongoing basis. FSIS will conduct an assessment of the "flags" in PHIS to
                    determine a process and a hierarchy for their use in scheduling food safety
                    assessments. Prior to the implementation of PHIS, Office of Field Operations
                    will communicate the process for following up on any PHIS flags to district
                    managers and other field employees. FSIS also will establish management
                    controls for the Executive Associate for Regulatory Operations (EARO) to
USDA/OIG-A/24601-07-Hy                                                                    Page 36
                    review the district manager’s management of food safety assessment
                    scheduling (see Exhibit J).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 15

                    Develop and implement procedures to ensure sufficient, timely followup
                    work is performed in response to findings in food safety assessments.

                    Agency Response.

                    In the supplemental response to the draft report, dated November 30, 2007,
                    FSIS officials stated that FSIS directive 5100.1, EIAO Comprehensive Food
                    Safety Assessment Methodology, will be updated to include a work method
                    for verification plans. Currently, that information is only contained in the
                    EIAO training material. The updated directive will also describe a work
                    method to address other food safety assessment findings that do not become
                    part of a formal enforcement action. FSIS intends to publish this revision to
                    this directive by May 2008 (see Exhibit J).

                    OIG Position.

                    We accept FSIS’ management decision.


Finding 5           A Comprehensive Agency-wide Data Analysis and Distribution
                    System is Needed

                    FSIS does not currently have a comprehensive, agency-wide data analysis
                    and distribution system in place to inform decision-makers of all the relevant
                    food safety and food defense issues, which may be of importance to the
                    agency, in the most timely and effective manner. Until last year, FSIS had
                    not focused its resources on developing a public health data infrastructure
                    with automated analytical tools for integrating agency data to rapidly identify
                    events, trends, and anomalies. Only in the current year has FSIS begun initial
                    steps to specifically define and implement data management controls to
                    ensure: (1) necessary types of information are collected, (2) required standard
                    reports are produced, (3) relevant analyses are performed and fully used by
                    all program areas and district offices, and (4) corrective actions are taken
                    when problems are identified. With strong data management controls in
                    place and fully functioning, FSIS is much better positioned to provide all
                    management levels the information needed to identify and correct food safety
                    concerns and effectively implement a risk-based inspection program.


USDA/OIG-A/24601-07-Hy                                                                    Page 37
                            Prior audits have disclosed that FSIS does not always have data management
Prior Audit
                            control systems in place, which consistently ensure that the agency is able to
Concerns
                            detect trends in serious food safety issues and inspection activities. Our 2004
                            report 54 disclosed that FSIS had not developed an effective management
                            control process for ensuring that it used its information systems and
                            important data to the fullest extent possible through information sharing and
                            trend analysis. A subsequent 2006 report 55 disclosed that FSIS management
                            information systems were not designed to allow the agency to readily monitor
                            and identify trends or weaknesses in establishments’ compliance with
                            specific regulatory requirements, such as controlling SRM. Our 2003 report 56
                            concerning the ConAgra recall pointed out that FSIS needed to be more
                            proactive in its oversight by seeking access to available sources of data and
                            analyzing, on an ongoing basis, the data’s importance as indicators of
                            problems that could impact food safety. FSIS has worked with OIG to reach
                            agreement on the corrective actions that need to be taken on the data
                            management control issues detailed in these reports. However, these reports,
                            as well as other OIG reports, demonstrate the agency’s continuous struggle to
                            collect, review, and analyze available information necessary to rapidly
                            identify events, trends, and anomalies that may indicate issues that could
                            adversely affect food safety.

                            The agency has not completed a formal, comprehensive, agency-wide
                            examination of its information needs or established a process to periodically
                            reassess these needs. The agency also has not fully implemented management
                            controls to identify the specific types of information to collect, the standard
                            reports to produce, or the analyses to perform, on an ongoing basis, by all
                            program areas and district offices. In about April 2007, the agency began a
                            process to formally analyze some of its data information streams; however,
                            the evaluations are not yet complete. The agency is also actively pursuing
                            how to conduct sophisticated statistical analyses of FSIS data and data from
                            other sources to provide indicators of potential food safety or food defense
                            related concerns in the future. In the past, FSIS had not dedicated adequate
                            resources toward building a consolidated, agency-wide, comprehensive, and
                            top-down data analysis and distribution system.

                            During our fieldwork in August 2007, we determined what data analysis
                            activities were currently in place at the agency-wide and local (district)
                            levels. We found that FSIS prepared a limited number of standard analytical
                            reports and those that were prepared were not fully used or shared with all
                            appropriate program managers. In addition, the agency has not provided
                            training or direction on specific analyses to be performed.



54
   Use of Food Safety Information Systems, Audit Report No. 24601-03-Ch, September 2004.
55
   Animal and Plant Health Inspection Service (APHIS) Bovine Spongiform Encephalopathy (BSE) Surveillance Program –
   Phase II and FSIS Controls Over BSE Sampling, Specified Risk Materials, and Advance Meat Recovery Products –
   Phase III, Audit Report No. 50601-10-KC, January 2006.
56
   Oversight of Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
USDA/OIG-A/24601-07-Hy                                                                                   Page 38
                              From interviews with FSIS national and district office officials, we found that
     Existing                 FSIS program offices do not fully use routine data extracted and analyzed by
     Management               the Office of Policy, Program, and Employee Development (OPPED). 57
     Reports Are Not          Also, FSIS has not thoroughly considered if modifications could be made to
     Fully Used               the data extracted to make them more useful to other program areas,
                              including the Office of Field Operations (OFO). 58 This occurred because
                              FSIS had not implemented management controls to ensure effective
                              distribution and full use of the results of all data analyses. Strengthening
                              management controls over data analysis and distribution would allow
                              affected program areas to initiate actions to correct problems identified by
                              analyses performed by other areas.

                              Beginning in mid-2005, OPPED began to focus on data analyses that enhance
                              policy development. OPPED began assessing the ongoing effectiveness of
                              the implementation of SRM regulations and related NRs. The identification
                              of the need to assess these specific NRs led OPPED to consider other
                              possible analyses for determining the need for new policy development.
                              However, in our discussions, we determined that neither OPPED, nor other
                              senior managers within the agency, have fully evaluated whether the
                              information in these and other analyses routinely performed by OPPED could
                              have broader applications. This is because these analyses were intended to
                              serve OPPED primarily as an active means for enhancing policy issuances
                              and training materials, and for more timely correcting misapplication of
                              policy.

                              OFO officials at the national and district levels indicated that they would find
                              reviewing some of the other OPPED analyses useful to help identify trends
                              and issues in their districts and circuits. However, the reports would need
                              modification to offer the same analysis on a specific district and circuit basis.

                              We reviewed a sample of other analyses prepared by OPPED. However, we
FSIS Had No
                              found there were various types of information indicating concerns or
Process for
                              problems that field management officials may have found useful. The
Sharing Results
                              following are examples of the types of issues that could be shared if FSIS had
of Analyses
                              in place a routine systematic process for sharing results or conclusions
                              presented in the current analyses 59 with interested users.

                               •    Inspectors entered incorrect procedure codes in PBIS over 50 percent of
                                    the time, which hindered the data analysis that could be performed on
                                    establishment noncompliances with SRM requirements;



57
   OPPED develops and makes recommendations concerning all domestic policy.
58
   OFO manages the national program of inspection and enforcement activities.
59
   The conditions shown in these reports may not have actually been problems or may not have been as serious as shown.
   The authors of these reports relied strictly on the data extracted from FSIS systems and their professional judgment as to
   their meaning and relevance. These OPPED staff did not validate their conclusions with other sources of data or
   discussions with appropriate FSIS personnel.
USDA/OIG-A/24601-07-Hy                                                                                             Page 39
                               •    Food safety assessments and intensive verification testing were not
                                    always being done promptly 60 when positive biological test results were
                                    found in a plant. One intensive verification testing was completed over
                                    8 months after a positive biological test result;
                               •    Inspection staff in some States were shown as having performed none of
                                    the required food defense procedures;
                               •    Inspectors recorded performing a task over 7,000 times under a
                                    procedure code that was retired by FSIS;
                               •    A high percentage of slaughter NRs were linked, 61 which may indicate
                                    that a number of HACCP plans appear to be inadequate;
                               •    A large number of establishments’ sanitation standard operating
                                    procedures (SSOP) may be inadequate due to plants not routinely
                                    evaluating the effectiveness of their SSOPs and revising their sanitation
                                    program as necessary; and
                               •    A large number of establishments were not being operated and
                                    maintained in a manner sufficient to prevent the creation of unsanitary
                                    conditions.

                              Because FSIS lacked a routine systematic process to distribute these reports
                              within FSIS, the validity of these issues was not substantiated or, ultimately,
                              corrective actions may not have been implemented to enhance food safety.
                              FSIS’ data management controls should ensure effective distribution and full
                              use of the results of all data analyses and reports to other affected program
                              areas, including field operations. Specifically, FSIS should perform an
                              analysis of all the reports currently available to determine if any would be
                              beneficial to other management levels in improving compliance and
                              operations, or if modifications would make them more useful at the district or
                              circuit levels.

Factors                       From our work at district offices, we found that (1) district analysts had not
Adversely                     been provided with adequate guidance on standard types of data management
Affecting                     and analysis they were to perform, (2) at least 3 district analyst position
District                      vacancies had not been promptly filled, (3) district analysts spend a
Analysts’                     significant portion of their time performing tasks unrelated to their data
Performance                   management and analysis functions, (4) district analysts did not always
                              review pathogen testing reports or receive the reports in a format that is
                              useful, and (5) district analysts had not received ongoing technical training.

                              Below the headquarters level, FSIS maintains a field structure of 15 district
                              offices that provide regulatory and inspection oversight in a State or several

60
   Until recently, specific requirements were not established for performing food safety assessments and intensive
   verification testing followup on positive biological test results. On October 12, 2007, FSIS issued Notice 64-07,
   Scheduling Food Safety Assessments and Intensive Verification Testing. This Notice requires the district office to
   schedule a food safety assessment within 30 days of being notified of a positive Lm, E. coli O157:H7, or Salmonella test
   result. The Notice also requires the district office to schedule intensive verification testing only with positive Lm test
   results.
61
   Linking NRs refers to documenting in an NR that similar deficiencies were noted in a previous NR or NRs.
USDA/OIG-A/24601-07-Hy                                                                                             Page 40
                         States. Within the district office are employees who are responsible for
                         analyzing various agency data and ensuring that districts are tracking and
                         following up on establishments with food safety issues. One such employee
                         is the district analyst, who aids district managers in analyzing data and
                         reports generated from the agency’s information systems and noting trends,
                         problem establishments, or emerging issues involving food safety. The
                         district analyst, in particular, monitors information systems with vast amounts
                         of food safety and inspection data like PBIS and the pathogen reduction
                         enforcement program.

FSIS Did Not             There is no ongoing standardized national training provided to district
Provide                  analysts on manipulating, analyzing, correlating, or interpreting data
Standardized             available from each of the agency’s information systems. As a result, FSIS
Guidance or              management and supervisory personnel may lack some of the analytical tools
Training                 necessary to recognize problems at meat and poultry establishments and take
                         appropriate action that may prevent serious food safety problems.

                         While we recognize that field managers may need the latitude to perform
                         their own type of data analysis, some basic system of standard reports and
                         analysis is needed to assist district managers, as well as headquarters
                         officials, in performing critical reviews of operational activities and assure
                         that oversight at the district office level is sufficient and effective across the
                         nation.

                         Currently, the OFO has plans to provide the district offices with a new
                         predictive model, being developed in conjunction with the Office of Public
                         Health and Science by the end of calendar year 2007. OFO intends to
                         mandate that district analysts collect the required data, analyze the results,
                         and act upon any adverse trends that are identified. Further, FSIS plans to
                         provide training to district analysts on the proper use of the new model and
                         software.

 DA Vacancies            Three of the districts reviewed experienced significant delays in filling
 Have Created            district analyst positions. The Albany and Des Moines districts had vacancies
 Problems for            that lasted over 6 months and the vacancy in Madison lasted over 1 year. As
 District Offices        a consequence of having these extended vacancies, district office personnel
                         informed us that they had difficulties accomplishing needed work. As an
                         example, the Albany district analyst did not follow up on management
                         reports that indicated that numerous scheduled samples were not submitted to
                         FSIS laboratories for testing.

 Critical Reports    District analysts could not readily perform historical analysis of pathogen
 Were Not In         testing results within their districts because recorded information was
 Searchable          presented in text or other non-searchable formats. Five district analysts
 Formats             stated that they would like to either receive sampling results in a spreadsheet
                     format or have read only access to the sampling databases in order to be able
                     to look at data on a long term basis. One deputy district manager noted that
                     when she wanted more than one month of testing data on a particular
 USDA/OIG-A/24601-07-Hy                                                                     Page 41
                    establishment she had to go into monthly or quarterly reports individually and
                    see if the establishment in question was listed. The deputy district manager
                    stated that she could go back several years but she could not readily search
                    the text documents for the information she needed. In another case, the
                    district analyst manually converted the information from monthly and
                    quarterly reports into a spreadsheet, which could be analyzed in various
                    ways. Another district analyst stated that if information is in a sortable
                    format he could do analysis by circuit, by inspector, or by the class of facility
                    (e.g., red meat slaughter verses poultry processing).

                    Within the last year, agency managers have taken action to improve their data
The DAIG Has        collection and analyses processes. On an agency-wide basis FSIS intends to
Been Formed To      improve overall situational awareness and better inform decision-makers
Monitor FSIS’       about food safety and defense issues through the newly formed DAIG, whose
Data                mission is to characterize, coordinate, analyze, and integrate data within and
                    across program areas.

                    The DAIG is responsible for ensuring the agency uses a transparent process,
                    based on sound science and inclusive of all stakeholders’ perspectives, to
                    improve the agency’s ability to effectively protect the food supply and public
                    health. The DAIG has developed standard procedures to be followed when a
                    data analysis project is initiated. The procedures consist of standard steps,
                    including problem definition, development of a technical plan (e.g.,
                    identifies, reviews, and discusses limitations of available data; discusses the
                    data collection and analysis strategy; and includes an evaluation plan), and
                    development of a technical paper that summarizes the results of the analyses.
                    The procedures included places for stakeholder input and peer review, which
                    would allow the technical paper to be used in agency decision-making.

  FSIS Is Now       Along with the agency’s recent efforts on risk-based inspection, the DAIG
  Considering       has been tasked with focusing its activities on how the agency can conduct
  Using             sophisticated statistical analyses of FSIS data. FSIS plans to develop a set of
  Advanced          predictive tools capable of identifying patterns and trends within FSIS data
  Analyses          and using data from other sources to provide indicators of potential food
  Techniques        safety or food defense related concerns. According to FSIS, the new
                    predictive analysis may include:

                     •    Using existing FSIS and USDA systems that support public health, such
                          as the FSIS data warehouse and AssuranceNet;
                     •    Incorporating self-learning algorithms into the system to allow FSIS data
                          analysis to evolve as more information is gathered;
                     •    Providing a mechanism that could subsequently integrate FSIS data with
                          Animal and Plant Health Inspection Service (APHIS) data for rapid
                          recognition and containment of animal disease; and
                     •    Developing a mechanism to link FSIS data with the Department of
                          Homeland Security’s National Biosurveillance Integration System once
                          developed.

 USDA/OIG-A/24601-07-Hy                                                                     Page 42
                         It is important that a predictive model use information and data generated by
                         FSIS, as well as other agencies (such as APHIS) and departments. The model
                         should be capable of combining internal and external data from inspection,
                         pathogen sampling, surveillance, imports, exports, health, disease, consumer
                         complaints, and other food safety and food defense sectors to perform
                         automated predictive analysis to efficiently and effectively eliminate or
                         reduce food safety issues. The contract for developing the predictive analysis
                         tool was awarded September 26, 2007, and is scheduled for deployment into
                         nationwide production by June 2008.

                         In conjunction with the DAIG, the Data Coordinating Committee (DCC)
Data
                         working group was established in April 2007. The DCC acts as a liaison
Information
                         between the various FSIS program offices and DAIG and provides the DAIG
Sheets Are
                         with information and feedback on data analysis issues in FSIS. As their first
Incomplete               initiative, the DCC began a process of identifying key systems that will be
                         needed to compile information for risk-based inspection. These systems
                         include the administrative enforcement reporting system, various subparts of
                         the microbiology and residue computer information system, consumer
                         complaints monitoring system, and pathogen reduction enforcement program.

                         The DAIG team has started a process of preparing information data sheets on
                         all of the key systems identified, about 15 systems. We recognize this as a
                         significant move in the right direction; however, considerable work remains.

                         We found the data sheets were incomplete. Most of the data sheets do not
                         include critical information such as key functions and data elements, user
                         requirements, or reports to generate routinely or ad hoc. The DAIG has not
                         completed most of the information data sheets. As of September 2007, the
                         DAIG had focused only on those systems critical to risk-based inspection,
                         which is only a first step. The group will still have considerable work to
                         perform in analyzing all of the agency’s information systems and data needs,
                         how data from these systems can be linked to identify problems, and how the
                         agency can develop predictive models and apply these analyses across the
                         entire agency. Already, the DAIG’s limited analysis of the data systems
                         critical to risk-based inspection has identified a number of potential data
                         limitations (see Finding 2).

                     FSIS has not yet fully defined or implemented data management controls to
                     ensure, that specific types of information are collected, necessary analyses
                     are performed on an ongoing basis, standard reports are produced, and that
                     needed followup actions are taken to correct problems identified.
                     Establishing effective data management controls is a continuous, dynamic
                     process of assessing and reassessing the data needs of the agency at all levels
                     to keep abreast of changes in the industry and revisions to laws and
                     regulations related to food safety. Effective data management controls places
                     FSIS in a better position for effective implementation for a risk-based
                     inspection program.
 USDA/OIG-A/24601-07-Hy                                                                    Page 43
                        FSIS is developing PHIS to replace existing domestic, export, and import
FSIS is
                        inspection systems, which will include new modeling and analysis modules.
Developing New
                        The new system is intended to allow FSIS personnel to know and report what
Inspection
                        requirements were verified and that the appropriate requirements were
System
                        verified and recorded for each establishment. Further, FSIS plans for the new
                        system to guide inspectors on the frequency of performing critical
                        verification procedures based on the establishment’s level of inspection for
                        risk-based inspection. FSIS is currently in the developmental phase of this
                        major infrastructure change and we believe the agency must closely monitor
                        the development, testing, and implementation of this new system to attain
                        satisfactory assurance that it can support the operations necessary to carry out
                        a complex scientifically-based, risk-based inspection system. It is critical that
                        risk-based inspection data requirements are established and incorporated into
                        the developmental phase of this PHIS endeavor.

                        To assure that national and district managers have all the tools they need to
                        properly manage program operations, controls need to be strengthened to
                        provide district analysts with (1) specific guidance on the types of data to
                        collect and analyses to perform, as well as data pathogen testing systems that
                        are searchable and are adaptable to various types of analysis, and (2) ongoing
                        training on new or modified software and specific analytical techniques. In
                        addition, focusing the activities of district analysts primarily on data
                        management, analysis, followup, and filling vacant district analyst positions
                        as soon as possible should increase the expediency with which food safety
                        issues will be identified and brought to the attention of management for
                        action.

                        We discussed our concerns and recommendations in an issue paper to FSIS
                        on September 20, 2007. FSIS provided its response on October 18, 2007 (see
                        Exhibit F). In developing our findings from our visits to the district offices,
                        we found that providing pathogen test result data in a searchable format
                        would assist analyses performed by district office personnel.

Recommendation 16

                        Closely monitor the administration of the PHIS contract and the
                        development, testing, and implementation of the new system to ensure it is
                        progressing as intended and to attain satisfactory assurance that it can support
                        the operations necessary to carry out a complex, scientifically-based
                        risk-based inspection program.

                        Agency Response.

                    In the response dated October 18, 2007, FSIS agreed to appoint a Contracting
                    Officer's Technical Representative (COTR) to play a critical role during all
                    phases of the acquisition process: pre-solicitation, solicitation and award, and
                    post-award. The COTR, with assistance from program staff, writes the
USDA/OIG-A/24601-07-Hy                                                                      Page 44
                       statement of work, establishes tasks, deliverables and timelines for the
                       project, monitors technical performance, compares progress with delivery
                       schedules and cost objectives, reviews and critiques contractor's deliverables,
                       and obtains Agency review from subject matter experts. In the case of the
                       PHIS contract, the COTR specifically will ensure the timely delivery of a
                       system that meets the goals outlined in the PHIS business requirements (see
                       Exhibit F).

                       In the response to the draft report, dated November 26, 2007, FSIS stated that
                       the agency, in conjunction with the contractor, is also developing a project
                       management plan. Certified agency project managers will assert appropriate
                       project control using ANSI earned value management standards to measure
                       and control costs and schedule. PHIS will be developed using standard
                       software development life cycle practices. The first version of the project
                       management plan will be developed by December 31, 2007 (see Exhibit I).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 17

                       Complete a comprehensive, agency-wide examination of national, divisional,
                       and district level analytical and informational needs and establish a process to
                       periodically reassess needs. This should include implementing management
                       controls to specifically define what analysis and information is needed, who
                       should perform the analysis and collect the information, who needs to be
                       provided the analysis or information (customers), how often the information
                       needs to be collected and analyzed, what is the most useful format to present
                       the information or analysis to the final users, and, finally, who is responsible
                       to ensure followup actions are taken to correct problems identified. The study
                       should also include an action plan for making the necessary changes to the
                       agency’s operating procedures and the estimated timeframes for
                       implementing these changes.

                       Agency Response.

                    In the response dated October 18, 2007, FSIS agreed that a comprehensive
                    examination of analytical and informational needs and a process for periodic
                    reassessment of those needs is essential. The DAIG, within the FSIS Office
                    of Food Defense and Emergency Response, was formed to lead a range of
                    activities, including those recommended by OIG. Specifically, the DAIG is
                    evaluating individual data streams and integrating data analyses across FSIS
                    program offices; ensuring that data analyses are relevant to program offices'
                    business processes and the agency mission; and ensuring that data analyses
                    are consistent and of high quality. The DAIG has a number of projects either
                    underway or soon to be initiated to identify and reassess analytical and
                    informational needs within the agency.
USDA/OIG-A/24601-07-Hy                                                                   Page 45
                   The DAIG will be developing a data analysis plan for identifying systemic
                   problems and positive outcomes in food safety or inspection associated with
                   identifiable trends in noncompliance or other data collected in OPPED
                   reports. A thorough review of all OPPED-generated reports will be
                   completed by December 30, 2007. Until then, OPPED will continue to create
                   the current reports and share each with all the senior managers in each
                   program area, and document the process for sending the reports to them and
                   capturing any comments received from them.

                   Also, during the initial phase of development for all modules of the PHIS
                   (i.e., predictive analytics, domestic inspection, import, and export) the
                   contractor and the agency will be refining the system's business requirements.
                   That will involve meeting with all program areas to determine and prioritize
                   their analytical needs, including report generation. The information will be
                   used to determine and prioritize program office analysis and report needs,
                   and will be summarized in a report for future reference.

                   As for an action plan for changing the agency's operating procedures, the
                   development of the PHIS already set the action plan in motion. Through the
                   incorporation of analytical needs into the IT system, the agency's operating
                   procedures will be changed. The DAIG, as part of coordinating data analysis
                   for the agency, will meet monthly with the DCC, comprised of senior
                   representatives from each program area. One purpose of these meetings will
                   be to review and update analytical needs (see Exhibit F).

                   In the response to the draft report, dated November 26, 2007, FSIS provided
                   estimated timeframes for when DAIG will complete the various types of
                   analysis and projects noted in the response to our issue paper. The
                   requirements gathering phase of PHIS, during which the DAIG and the
                   contractors developing the system will meet with all program areas to
                   identify and prioritize analytical and reporting needs will be completed
                   January 31, 2008. The DAIG's report on its survey of district analysts and
                   their roles, including recommendations on reports that they should be
                   generating, will be completed by February 28, 2008.

                   The DAIG has been working with DCC members from FSIS programs to
                   complete an FSIS data analysis project matrix. That matrix, in combination
                   with the data stream and data sub-stream information sheets being prepared
                   by DAIG in conjunction with the DCC, will summarize what data analysis
                   projects are being conducted by each program office, what reports are being
                   generated, who the audience is for the reports, the distribution method used
                   for the reports, and followup tracking methods (e.g., emailed to relevant
                   individuals, posted on the FSIS website, etc.). The DAIG and DCC meet
                   monthly, at which time the DCC members will be asked to provide any
                   updates to the matrix and data stream/sub-stream information sheets. The
                   initial matrix will be completed by December 31, 2007 (it will be continually

USDA/OIG-A/24601-07-Hy                                                                  Page 46
                       updated based on projects being initiated and completed), and initial
                       information sheets will be completed by April 15, 2008 (see Exhibit I).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 18

                       Complete the in-depth analysis of all the data information streams within
                       FSIS. Also, establish a mechanism to assure that once the analysis is
                       performed for a system it is updated on a regular basis and that new systems
                       are fully analyzed before they come on line.

                       Agency Response.

                       In the response dated October 18, 2007, FSIS stated that the DAIG is
                       completing data information sheets to catalogue and characterize data within
                       the agency. A subset of the data sheets, which includes those streams of
                       potential use in a risk-based algorithm, will be completed by
                       mid-October 2007. Completion of the remaining information sheets has been
                       incorporated into the DAIG's project schedule for completion by
                       April 15, 2008. As part of the process, the information sheets will be
                       reviewed by the DCC before being finalized so that the DCC is responsible
                       for reporting to the DAIG on any updated or new datasets, analysis projects,
                       or reports. In addition, the DCC will conduct an annual review of all data
                       sheets beginning April 15, 2009 (see Exhibit F).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 19

                       Implement management controls to ensure effective distribution and full use
                       of the results of all data analyses and reports to other affected program areas,
                       including field operations, in order to allow for followup actions to correct
                       problems identified and to establish performance goals for inspectors.

                       Agency Response.

                    In the response dated October 18, 2007, FSIS agreed to implement effective
                    distribution and full use of the results of all data analyses and reports to
                    document attainment of department and agency strategic plan goals. Agency
                    management controls that define control activities, information dissemination
                    and reporting, and monitoring functions will be used to document data
                    analysis and reports as part of the program assessment rating tool (see
                    Exhibit F).
USDA/OIG-A/24601-07-Hy                                                                   Page 47
                      In the response to the draft report, dated November 26, 2007, FSIS stated that
                      the DAIG has undertaken a number of activities to identify, characterize,
                      coordinate, analyze, and integrate data collection and analysis needs within
                      the agency. Specific projects conducted in anticipation of the implementation
                      of risk-based inspection and PHIS will be completed in the Spring of 2008.
                      Upon reviewing the results of these DAIG projects, FSIS programs will
                      determine what management controls are necessary for the distribution and
                      review of data analyses.

                      The requirements gathering phase of PHIS, during which the DAIG and the
                      contractors developing the system will meet with all program areas to
                      identify and prioritize analytical and reporting needs, will be completed
                      January 31, 2008. The DAIG's report on its survey of district analysts and
                      their roles, including recommendations on reports that they should be
                      generating, will be completed by February 28, 2008.

                      The DAIG has been working with DCC members from FSIS programs to
                      complete an FSIS data analysis project matrix. That matrix, in combination
                      with the data stream and data sub-stream information sheets being prepared
                      by DAIG in conjunction with the DCC, will summarize what data analysis
                      projects are being conducted by each program office, what reports are being
                      generated, who the audience is for the reports, the distribution method used
                      for the reports, and followup tracking methods (e.g., emailed to relevant
                      individuals, posted on the FSIS website, etc.). The DAIG and DCC meet
                      monthly, at which time the DCC members will be asked to provide any
                      updates to the matrix and data stream/sub-stream information sheets. The
                      initial matrix will be completed by December 31, 2007 (it will be continually
                      updated based on projects being initiated and completed), and initial
                      information sheets will be completed by April 15, 2008 (see Exhibit I).

                      OIG Position.

                      We accept FSIS’ management decision.

Recommendation 20

                      Perform an analysis of all reports currently generated (including those
                      generated by the OPPED) and determine if any would be beneficial to other
                      divisions/levels in improving compliance and operations. Further, determine
                      if modifications could be made to the reports to make them more beneficial to
                      other program areas, including field operations.

                      Agency Response.

                    In the response dated October 18, 2007, FSIS stated that as discussed in
                    response to Recommendation 17, FSIS is initiating a number of major
                    projects that include current reports and reporting needs. Through these
USDA/OIG-A/24601-07-Hy                                                               Page 48
                        efforts, modifications of reports will be made to make them more beneficial
                        to all relevant program areas, and ensure dissemination to all offices (see
                        Exhibit F).

                        In the response to the draft report, dated November 26, 2007, FSIS provided
                        estimated timeframes for when DAIG will complete the various types of
                        analysis and projects noted in the response to our issue paper. The
                        requirements gathering phase of PHIS, during which the DAIG and the
                        contractors developing the system will meet with all program areas to
                        identify and prioritize analytical and reporting needs will be completed
                        January 31, 2008. The DAIG's report on its survey of district analysts and
                        their roles, including recommendations on reports that they should be
                        generating, will be completed by February 28, 2008.

                        The DAIG has been working with DCC members from FSIS programs to
                        complete an FSIS data analysis project matrix. That matrix, in combination
                        with the data stream and data sub-stream information sheets being prepared
                        by DAIG in conjunction with the DCC, will summarize what data analysis
                        projects are being conducted by each program office, what reports are being
                        generated, who the audience is for the reports, the distribution method used
                        for the reports, and followup tracking methods (e.g., emailed to relevant
                        individuals, posted on the FSIS website, etc.). The DAIG and DCC meet
                        monthly, at which time the DCC members will be asked to provide any
                        updates to the matrix and data stream/sub-stream information sheets. The
                        initial matrix will be completed by December 31, 2007 (it will be continually
                        updated based on projects being initiated and completed), and initial
                        information sheets will be completed by April 15, 2008 (see Exhibit I).

                        OIG Position.

                        We accept FSIS’ management decision.

Recommendation 21

                        Provide ongoing training to district analysts on new or modified software and
                        specific analytical techniques, including the type of data to collect, standard
                        types of analysis to perform, format to present data, frequency of reporting
                        the results, and followup actions the analysts are expected to take on any
                        adverse issues noted. Also, establish a system to track when training is taken,
                        the type of training taken, and a system to alert the appropriate managers if
                        the minimal levels of training are not being achieved.

                        Agency Response.

                    In the response dated October 18, 2007, FSIS stated that as part of its efforts
                    to identify the analyses currently being conducted by the district offices and
                    to help determine what analyses should be conducted at the district offices or
                    at headquarters, the DAIG and the Center for Learning in OPPED will
USDA/OIG-A/24601-07-Hy                                                                    Page 49
                    develop a component to train district analysts. The training will include the
                    use of new or modified software and specific analytical techniques, how to
                    generate standard reports, the frequency of generating reports, and followup
                    actions that appropriate program officials are expected to take on any
                    potential adverse issues identified by the tools. The Center for Learning
                    currently tracks when training is taken thru AgLearn, where the learning
                    history of all courses for each employee is stored. The type of training also is
                    recorded in AgLearn. By the end of 2008, FSIS will be fully implementing
                    the feature in AgLearn that allows managers to detect if minimal levels of
                    training are not completed (see Exhibit F).

                    In the response to the draft report, dated November 26, 2007, FSIS agreed to
                    complete the training of district analysts by June 30, 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 22

                    To the extent feasible, focus the activities of district analysts primarily on
                    their data management and analysis responsibilities and promptly fill vacant
                    district analyst positions.

                    Agency Response.

                    In the response dated October 18, 2007, FSIS stated that the key
                    grade-determining duty of the district analyst involves their support for the
                    technical and scientific basis of district-wide enforcement actions. Other key
                    duties include serving as a subject matter expert and coordinator concerning a
                    variety of food safety regulatory and inspection matters. FSIS agrees that to
                    the extent feasible, the district analysts should focus their activities on data
                    analysis and management. We believe that the DAIG activities described in
                    response to Recommendation 20 will assist them in accomplishing this goal.
                    In addition, FSIS will revise the district analyst position description by
                    January 2008 to better clarify their primary data analysis role, especially as
                    that relates to enforcement activity.

                    As a result of non-frontline hiring restrictions during 2006, several district
                    analyst positions were, by necessity, left vacant. Currently there is one vacant
                    district analyst position in the Atlanta District. The announcement to fill this
                    position closed on October 19, 2007 (see Exhibit F).

                    OIG Position.

                    We accept FSIS’ management decision.


USDA/OIG-A/24601-07-Hy                                                                     Page 50
Recommendation 23

                               Provide pathogen test results data in a searchable format to the appropriate
                               district office personnel.

                               Agency Response.

                               In the response to the official draft report, dated November 26, 2007, FSIS
                               stated that the PHIS will provide lab data in a more user-friendly format,
                               allowing inspection program personnel to run reports providing the details of
                               samples collected during a user-specified timeframe. A prototype for
                               domestic inspection within the PHIS will run in a test environment during the
                               third quarter of calendar year 2008 to selected users. The nationwide
                               production readiness for PHIS with the domestic module is currently
                               scheduled for the second quarter of calendar year 2009 (see Exhibit I).

                               OIG Position.

                               We accept FSIS’ management decision.


Finding 6                      Progress Made on Management                          Control      Structure,       But
                               Improvements are Still Needed

                               Prior OIG audit reports 62 recommended, and FSIS officials agreed, to
                               establish a management control process for accumulating and analyzing food
                               safety data and to strengthen monitoring of inspection activities. FSIS
                               responded to our recommendations by implementing the In-Plant
                               Performance (IPPS) and AssuranceNet systems as a means of providing
                               management oversight of public health activities carried out by OFO. These
                               systems are important components in the implementation of a management
                               control structure, in that they provide valuable performance data both to
                               supervisors and to higher-level managers. However, FSIS is still in the
                               process of getting them fully and effectively implemented. A fully
                               functioning management control structure should provide the means to
                               accumulate, review, and analyze all data available to the agency, and to
                               assign responsibilities and provide guidance for performing these functions.
                               FSIS’ management control structure directly affects the accuracy of recorded
                               risk factors such as microbiological test results and food safety-related NRs,
                               and is thus integral to FSIS’ risk-based inspection program.

                               FSIS implemented the IPPS system in October 2002 as its first step in
                               creating a management control structure. IPPS is a tool used by supervisors to
                               assess the work of non-supervisory in-plant inspection program personnel.
                               The IPPS review process provides a framework and guidelines for
62
     Oversight of Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003, and Use
     of Food Safety Information Systems, Audit Report No. 24601-03-Ch, September 2004.
USDA/OIG-A/24601-07-Hy                                                                                       Page 51
                               supervisors to use in evaluating employee performance. It also allows higher-
                               level officials such as district managers and EAROs 63 to review and evaluate
                               the adequacy of the performance assessments. IPPS is a critical building
                               block in any management control structure because it provides assurances to
                               management that FSIS’ in-plant inspection personnel are performing their
                               inspection duties in accordance with agency policies and instructions.
                               However, a 2006 OIG audit of the IPPS process 64 revealed that better
                               guidance was needed for the supervisors, as well as stronger controls to
                               ensure that IPPS reviews were being performed in a complete and consistent
                               manner. This was provided in the form of a new FSIS directive while the
                               audit work was still ongoing. 65

                               In July 2006, FSIS implemented the second and broader component of its
                               management control process, AssuranceNet. 66 This system tracks and
                               monitors the performance of FSIS personnel in eight key functional areas 67
                               related to food safety and security. Each functional area contains one or more
                               monitored performance measures in which current performance is measured
                               against predetermined thresholds, some of which are based on average
                               performance measures from prior years. For example, some performance
                               measures assess whether a sufficient percentage of scheduled tasks is being
                               performed by FSIS inspectors.

                               AssuranceNet draws information from various sources and databases,
                               including PBIS, laboratory data systems, animal disposition systems, IPPS
                               assessment reports, and entries made to AssuranceNet directly, to determine
                               the current level of performance. This information can be displayed at
                               various organizational levels. In all, AssuranceNet monitors 61 performance
                               measures in the 8 functional areas related to food safety and provides this to
                               FSIS managers in the form of standard reports for each performance measure.
                               It also allows Headquarters and district-level managers to view a special




63
   EAROs report to the Assistant Administrator for Field Operations. Each of the four EAROs, working through their
   assigned district offices, is responsible for assuring that regulated meat, poultry, and egg establishments meet regulatory
   requirements for food safety, food security, and other consumer protection activities. In AssuranceNet, the EARO has
   view access to data from every functional area, and also has the ability to enter comments to the IPPS record in
   AssuranceNet, following his/her review of an IPPS assessment. EAROs are responsible for reviewing at least 2 percent
   of the IPPS forms reviewed by their subordinate District Manager teams.
64
   In-Plant Performance System, Audit Report No. 24601-06-Ch, March 2006.
65
   FSIS Directive 4430.3, In-Plant Performance System, Rev. 1, issued November 18, 2005.
66
   Although implemented in July 2006, FSIS officials stated that the system did not become fully functional until
   approximately February 2007.
67
   These are: (1) Ante Mortem/Post Mortem Inspection; (2) HACCP Pathogen Reduction Execution; (3) HACCP Pathogen
   Reduction Design; (4) Recall System Management; (5) Enforcement; (6) Food Security/Reporting of Non-Routine
   Events; (7) IPPS; and (8) Exports. In early 2007, AssuranceNet was expanded to include monitoring in an additional 8
   areas involving such areas as financial management and employee relations.
USDA/OIG-A/24601-07-Hy                                                                                              Page 52
                               Dashboard Manager screen that provides a broad “snapshot” of current
                               performance. 68

AssuranceNet                   Prior OIG audits have identified several functions which FSIS’ management
Does Not Fully                 control structure would need to perform in order to address conditions that
Address Prior                  were noted during our audit work. As presently designed, AssuranceNet
Audit                          addresses only some of these areas, as described below.
Recommendations
                                1. FSIS agreed to define the responsibilities of each management and
                                   operating level associated with meat and poultry establishment
                                   inspection. 69 Except for specific requirements for reviewing IPPS, food
                                   safety assessment review forms, and administrative enforcement reports,
                                   however, AssuranceNet does not define the responsibilities of officials at
                                   various organizational levels and functional areas for using the system or
                                   following up on the performance information it provides.

                                2. FSIS agreed to implement procedures for regular communication and
                                   coordination between units. 70 AssuranceNet, while providing important
                                   information to its users, does not ensure that various levels and units are
                                   adequately communicating with one another except in specific areas. 71

                                3. Finally, FSIS agreed to provide a process for the Technical Service
                                   Center (TSC) to perform independent analyses of inspection and
                                   establishment data collected through the agency’s IT systems, and to
                                   provide the results of such analyses to appropriate users both at
                                   headquarters and in the field. 72 Although AssuranceNet’s own generated
                                   reports are accessible to all designated officials from the frontline
                                   supervisor level to upper management, it does not address the need for
                                   sharing of other information (e.g., the OPPED Reports) to all identified
                                   users. (FSIS officials are also addressing this issue in their response to
                                   Recommendation 17, where they agreed to implement effective
                                   distribution and full use of the results of all data analyses and reports).

                               Specific issues we noted with the AssuranceNet application, as well as with
                               IPPS, are noted in the upcoming paragraphs.



 68
    Along with Headquarters users, the District Manager, Deputy District Manager, and District Analyst in each district have
    access to the Dashboard Manager screen. This tool is intended to allow managers to see if there are any performance
    measures within their area of responsibility that are currently not meeting the target expectations. On this screen, the
    performance measures are depicted in the form of color-coded speedometer gauges, with red indicating the performance
    measures that are not meeting the assigned targets.
 69
    Use of Food Safety Information Systems, Audit Report No. 24601-03-Ch, Recommendation 1; and Oversight of
    Production Process and Recall at ConAgra Plant, Audit Report No. 24601-2-KC, Recommendation 5.
 70
    Use of Food Safety Information Systems, Audit Report No. 24601-03-Ch, Recommendation 1.
 71
    Performance measures under two of the eight functional areas, food safety assessments and IPPS, monitor the number of
    reviews by EAROs, district managers, deputy district managers, and district case specialists, as applicable.
 72
    Use of Food Safety Information Systems, Audit Report No. 24601-03-Ch, Recommendation 2.

 USDA/OIG-A/24601-07-Hy                                                                                           Page 53
                               In 2004, we reported 73 that the agency had not developed a set of written
FSIS Needs to                  procedures to specify the responsibilities of each organizational level –
Strengthen Its                 including headquarters, the district offices, Office of Program Evaluation,
Written                        Enforcement and Review (OPEER), and the TSC – for data collection,
Procedures to                  analysis, and monitoring. In addition, we noted that the agency needed to
Supplement                     develop procedures to ensure regular communication and coordination
AssuranceNet                   between these various groups to ensure the most effective use of the agency’s
                               inspection and managerial resources. Agency officials agreed with the need
                               to implement a management control system that incorporated these features,
                               and AssuranceNet is a significant step in that direction. However, by itself
                               AssuranceNet does not constitute a management control structure which
                               would ensure that data – such as food safety NRs and microbial test results –
                               are completely and accurately recorded for use in the risk-based inspection
                               process. Rather, AssuranceNet is a tool for FSIS managers to use in
                               implementing a management control structure. The agency still needs to issue
                               written policies and procedures to ensure that AssuranceNet is used in a
                               consistent and comprehensive manner at all organizational levels.

Clear Written                  When the system was implemented, FSIS issued the AssuranceNet Users
Instructions                   Guide to describe how the system operated from a functional perspective.
Needed                         The guide instructed users in technical matters such as site navigation and the
                               permission levels of various users to input, review, and update data. Also,
                               certain performance measures specifically required designated officials to
                               perform specific actions – such as the requirement that district management
                               teams, district case specialists, and EAROs review set percentages of
                               completed IPPS forms and food safety assessments. However, the guide did
                               not outline policies and procedures to specify the responsibilities of agency
                               officials for collecting, monitoring, and analyzing the data which the system
                               produces.

     Managers Not              OFO officials stated that it was their expectation that officials at all levels
     Consistently              would access and review key system data pertinent to their areas of
     Using                     responsibility (e.g., the dashboard screens) on at least a monthly basis.
     AssuranceNet              However, we found that there was little uniformity in how district managers
                               and their deputies used the system at the five district offices we visited. One
                               district had independently issued written instructions to the district staff,
                               specifying responsibilities of deputy district managers, frontline supervisors,
                               and the district analyst for following up on identified problems and reporting
                               these to the appropriate management level; these instructions were amended
                               to incorporate AssuranceNet as a management tool. Officials from another
                               district, by contrast, stated that they made little use of AssuranceNet beyond
                               normal data entry and the required management reviews of IPPS forms and
                               food safety assessments. Other districts we visited used the system to varying
                               degrees, alongside other monitoring practices employing both manual
                               reviews and other IT systems such as PBIS.


73
     Use of Information Technology Systems, Audit Report No. 24601-03-Ch, September 2004.
USDA/OIG-A/24601-07-Hy                                                                               Page 54
                    FSIS has not defined how the AssuranceNet performance measures are
 AssuranceNet       applied to each organizational level. We generally found that the district
 Reviews Not        offices and frontline supervisors viewed the system’s performance measures
 Performed Below    only at the circuit level and higher. They did not use AssuranceNet to review
 Circuit Level      the performance of individual establishments unless the entire circuit failed to
                    meet a particular performance measure. However, we found instances in
                    which a circuit’s overall performance could conceal poor performance at
                    individual establishments in key areas such as the completion of
                    PBIS-assigned inspection tasks or the submission of microbial samples. This
                    could also potentially impact the performance measure that monitors the
                    submission of product samples for microbial testing by FSIS laboratories.

 Followup Action    FSIS had not issued guidance as to when followup action should be initiated
 Not Consistently   once a performance measure in AssuranceNet drops below the target
 Taken              thresholds. In addition, guidance had not been issued on how to document
                    the actions taken. We found that the EAROs, who monitor the performance
                    of the districts, did not follow a specified process in determining at what
                    point a particular AssuranceNet measure indicated the need for supervisory
                    intervention. Contacts with district offices to followup on supervisory
                    contacts initiated due to AssuranceNet were not consistently documented, a
                    condition we had found in our previous audit before the system was
                    implemented. There was considerable variation at the district offices as well;
                    while some districts stated that they followed up promptly when the
                    performance targets were not met, officials at one district stated that the
                    timing of their followup was largely dictated by their overall workload at the
                    time the AssuranceNet reports were reviewed. Without clear written
                    procedures to guide FSIS officials in the use of the AssuranceNet system,
                    previously reported issues related to the management control structure may
                    continue to exist. In their response to an issue paper on this subject, issued in
                    August 2007, FSIS officials agreed and stated that more comprehensive
                    procedures would be issued (see Exhibit G).

                    To be successful, a risk-based inspection program depends upon the work of
                    FSIS inspectors in identifying and documenting health and safety issues at
                    inspected establishments; it also depends on this data being properly recorded
                    and used in the risk calculations for each inspected establishment. A
                    management control structure based on AssuranceNet could provide
                    reasonable assurance this is done, but only when the necessary policies,
                    procedures, and controls have been put into place to ensure that the system is
                    being used in a prescribed and consistent manner by users at all
                    organizational levels.




USDA/OIG-A/24601-07-Hy                                                                      Page 55
Lack of Controls    Our prior audit found that supervisors were not consistently assessing
to Ensure that      inspectors on their proficiency in all performance elements critical to food
IPPS Reviews        safety oversight during each annual rating period. Although FSIS improved
Cover All           its guidance to supervisory personnel in performing IPPS reviews, we found
Required            that employees are still not being consistently assessed on all performance
Elements            elements. The IPPS reviews we analyzed for 24 of 46 (52 percent)
                    non-supervisory employees did not document that all required performance
                    elements were assessed. The agency’s response to our prior audit stated that
                    the AssuranceNet system would monitor performance on an ongoing basis.

                    As presently designed, the system captures the necessary data from the IPPS
                    review forms to monitor whether employees are being rated on all elements
                    and sub-elements applicable to their positions during each 1-year rating
                    period. However, AssuranceNet is not currently used to perform this
                    function.

                    Unless FSIS inspectors are consistently evaluated on all of their applicable
                    performance elements as part of the IPPS process, FSIS has reduced
                    assurance that inspection tasks at the establishment level are being performed
                    in such a way as to provide complete and accurate information for its risk
                    based inspections.

 Lack of Controls   In our prior audit on the IPPS process, we reported that for a significant
 to Ensure that     number of the inspectors reviewed – 13 percent – supervisors did not perform
 IPPS Reviews Are   the required minimum of two IPPS reviews per year. Since implementation
 Performed as       of AssuranceNet, we found that improvements have been made. However,
 Required           for the 2006-2007 rating year, for the 46 employees we reviewed,
                    4 (9 percent) received only one documented IPPS review. Although FSIS’
                    primary emphasis is to ensure that employees are rated on each performance
                    element and sub-element at least once a year, the agency also requires that at
                    least two reviews be done – one in each 6-month period – as a means of
                    ensuring that employees are receiving supervision throughout the year and
                    are adequately performing their duties on an ongoing basis. AssuranceNet’s
                    performance measure 8.1.1 (IPPS) analyzes whether the number of IPPS
                    reviews performed in a given year is equal to or greater than the number of
                    reviews needed to provide two to each employee the system is monitoring.
                    However, it does not monitor whether individual employees are receiving the
                    required number of IPPS reviews because the system was not initially
                    designed as a tracking mechanism for the IPPS reviews. FSIS has since
                    concluded that it should design a component of the system that could be used
                    for this purpose, and should adjust the calculations for the measure 8.1.1 to
                    more truly reflect the percentage of employees who have (or have not)
                    received the required two IPPS assessments per year. Currently, the system
                    only counts employees who have had at least one IPPS review in the current
                    rating year. An employee who had not received even a single IPPS review, or
                    for whom no reviews had been entered in the system, would not be factored
                    into the AssuranceNet analysis.

 USDA/OIG-A/24601-07-Hy                                                                  Page 56
                              At present, the only other IPPS-related controls built into AssuranceNet are
                              the five performance measures that monitor reviews of completed IPPS forms
                              by district management and the EAROs. These reviews are not necessarily
                              effective, however, in assuring that the required numbers of IPPS reviews are
                              performed for each employee, or that all performance elements have been
                              addressed. 74

                              AssuranceNet monitors 24 performance measures that are based entirely on
IPPS Reviews Do               data from the IPPS review forms that are entered into the system. These
Not Support                   include all of the measures for two of AssuranceNet’s functional areas (Food
AssuranceNet                  Security/Reporting of Non-Routine Incidents, and Exports) and
Performance                   approximately half of the performance measures for two other functional
Elements                      areas (Ante Mortem/Post Mortem Inspection and HACCP Pathogen
                              Reduction Execution).

                              For instance, one performance measure 75 uses data from IPPS forms to assess
                              whether all noncompliances at inspected establishments are documented
                              using NRs. AssuranceNet performs this analysis by scanning the IPPS forms
                              for instances in which a “followup” block has been checked, indicating a
                              performance deficiency on the part of the employee being assessed. 76

                              The FSIS Directive 77 on IPPS instructs the supervisor to check the followup
                              block when deficiencies are noted and provide comments and feedback.
                              Comments must clearly describe what was reviewed or observed.

                              We found that supervisors were not consistently following this guidance. Of
                              the 98 IPPS forms we reviewed, 13 contained “followup” blocks that were
                              either checked when there was no supporting documentation to describe the
                              deficiency the supervisor was reporting, or else where the blocks were not
                              checked when the narrative clearly described a performance deficiency.78 If
                              the information being input to AssuranceNet from the IPPS review forms
                              cannot be relied on, then AssuranceNet’s analyses based on this data will be
                              of limited value.

                              We believe FSIS officials need to review on an agency-wide basis the overall
                              design of the existing management control structure and determine whether



74
   This is because EAROs and District Manager teams generally review only a single IPPS form as part of their review for
   any given employee. To verify either the number of reviews performed, or that all of the required measures were
   addressed, it would be necessary for them to review all of the IPPS reviews performed on a particular employee during a
   given rating year. There is no requirement that this level of review be performed.
75
   Performance measure 2.1.2, under HACCP/Pathogen Reduction Execution
76
   For instance, sub-element 5a of the consumer safety inspector IPPS form asks whether the inspector “Describes each
   noncompliance in clear, concise terms,” while sub-element 5b asks whether the inspector “Cites specific regulatory
   requirements that were not met.”
77
   Directive 4430.3 In-Plant Performance System, Revision 1, section X.C.3, dated November 18, 2005.
78
   Note that we would not have been able to identify any instances where a deficiency was not reflected either by checking
   the “followup” box or through narrative on the IPPS form.
USDA/OIG-A/24601-07-Hy                                                                                          Page 57
                    the supplemental controls we are recommending as part of this report are
                    sufficient to address these needs.

Recommendation 24

                    Provide officials at each level with written guidance on the use of the
                    AssuranceNet system, particularly with regard to followup actions and
                    adherence to the established system thresholds.

                    Agency Response.

                    In the response dated September 18, 2007, FSIS agreed to provide additional,
                    comprehensive written guidance for managers at all levels on reviewing,
                    analyzing, and responding to AssuranceNet results. This guidance will be
                    published as an FSIS directive or notice by December 2007 (see Exhibit G).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 25

                    Establish procedures to ensure that warning “flags” provided by
                    AssuranceNet are timely and effectively followed up on, particularly in cases
                    in which deficiencies are repeatedly noted at the same establishment, circuit,
                    or district.

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS agreed
                    with the need for timely and effective followup on “flags.” They agreed to
                    provide additional, comprehensive written guidance for managers at all levels
                    on reviewing, analyzing, and responding to AssuranceNet results. FSIS
                    anticipated issuing this guidance in January 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 26

                    Provide guidance to officials, particularly at the district level, to use
                    AssuranceNet to view performance data down to the establishment level, as
                    well as the circuits and districts.




USDA/OIG-A/24601-07-Hy                                                                   Page 58
                       Agency Response.

                       In the response to the draft report, dated November 26, 2007, FSIS stated that
                       they would issue instructions by January 2008 for “drilling down” into data
                       below the circuit level in AssuranceNet. They noted that while this was
                       normally done in cases where an entire circuit failed to meet a target, drilling
                       down to the establishment level in circuits that did meet their targets would
                       identify any outliers that might require further investigation (see Exhibit I).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 27

                       Modify AssuranceNet to monitor the completion and results of all required
                       elements and sub-elements assessed during IPPS reviews.

                       Agency Response.

                       In the response to the draft report, dated November 26, 2007, FSIS stated that
                       it would be impossible to program AssuranceNet to make the determination
                       that all applicable elements were covered for each of the 6,000 employees to
                       which IPPS applies. However, FSIS agreed that they needed to better monitor
                       the completion of all applicable elements and sub-elements, and proposed
                       instead to develop additional guidance to supervisors reviewing IPPS
                       assessments, instructing them to specifically focus on the extent to which
                       these are being covered over the course of the year. This guidance will be
                       contained in an updated version of the AssuranceNet User’s Guide in
                       January 2008 (see Exhibit I).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 28

                       Implement features within AssuranceNet that will allow the system to
                       (1) identify employees who have not worked in an IPPS-rated position for an
                       entire rating period (e.g., retired or new employees), and (2) identify, for
                       corrective action, instances in which employees have not received the
                       required IPPS reviews.

                       Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS expressed
                    agreement with the recommendation and noted that this had also been
                    identified as a concern by FSIS district management teams. They stated that
USDA/OIG-A/24601-07-Hy                                                                  Page 59
                    design and implementation of an AssuranceNet feature for tracking
                    completion of IPPS assessments has been incorporated into a contract the
                    agency currently has in place to build onto AssuranceNet, and they are
                    working with the contractor to finalize the requirements. The tracking
                    feature, planned for implementation in May 2008, will allow users to
                    generate reports displaying lists of individuals who have outstanding IPPS
                    reviews, including individuals who have not yet received an IPPS assessment
                    in the current rating period (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.

Recommendation 29

                    Implement procedures and controls as needed to ensure that supervisors limit
                    their use of the “followup” box on the IPPS review forms to instances
                    involving documented performance deficiencies.

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS agreed
                    that the importance of accurately using the followup box needs to be re-
                    emphasized. As a result, FSIS Directive 4430.3 will be updated by
                    February 2008 to make more explicit the instructions on using the followup
                    box. In addition, FSIS will develop guidance for use by reviewers of IPPS
                    assessments to ensure that their oversight reviews include a determination of
                    whether there is a match between the narrative comments and what is in the
                    followup boxes, whether checked or un-checked. This will either be included
                    in the guidance to be issued to managers at all levels, or will be reflected in
                    the updated version of the AssuranceNet User’s Guide, both of which will be
                    issued in January 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.


Finding 7           FSIS Did Not Timely Address Prior Audit Recommendations

                    Although recent improvements have been made, we found FSIS did not
                    timely address deficiencies noted in prior OIG audit reports. According to
                    FSIS officials, the amount of time it takes to close a recommendation varies
                    and is due to the (1) difficulty and complexity of the corrective action,
                    (2) emerging public health problems that compete for agency resources, and
                    (3) the continuous evolution of agency programs and industry practices.


USDA/OIG-A/24601-07-Hy                                                                    Page 60
                              OMB Circular A-50 requires agreement to be reached between the agency
                              and OIG (i.e., management decision) on the corrective actions to address
                              recommendations within 6 months of report issuance. In addition,
                              Departmental Regulation 1720-01 states agencies will implement agreed-
                              upon corrective actions that are associated with audit recommendations in a
                              timely manner. The regulation further instructs agency liaison officials to
                              ensure that (1) corrective actions on audits without final action 1 year after
                              the management decision date are proceeding as intended and (2) the
                              corrective action associated with each management decision is completed as
                              scheduled.

                              We reviewed 278 prior recommendations OIG made since 2000. Including
                              the 6 recommendations still without management decision, there are 66 prior
                              OIG audit recommendations where the corrective actions (i.e., final action)
                              have not yet been implemented. FSIS has made recent progress in achieving
                              management decision and final action on prior OIG audit recommendations.
                              Over the last 2 years, FSIS has worked closely with OIG to reduce the
                              number of unresolved audit recommendations. In 2005, there were 36
                              recommendations without management decision; FSIS has reduced that
                              number to 6. During the same time period, the percentage of
                              recommendations where final action was achieved increased from 54 to 76
                              percent.

                              As part of this audit, we selected 94 prior audit recommendations that OIG
                              considered to be the most critical to the development and implementation of
                              risk-based inspection. Of these 94 recommendations, 3 were without
                              management decision and an additional 40 were without final action. One of
                              the recommendations without management decision was made in our
                              June 2000 report. 79 We recommended that FSIS establish timeframe
                              requirements for responding to NRs and initiating planned corrective actions.
                              FSIS does not agree with establishing specific timeframes but has not
                              proposed an alternative approach to address this recommendation. NRs are
                              critical to FSIS’ risk-based inspection model.

                              We found 34 out of 40 recommendations without final action have been
                              without final action for more than 1 year since the management decision date.
                              During our fieldwork, we also found that FSIS did not adequately implement
                              the actions they proposed in response to the recommendations made. We
                              have incorporated the status of FSIS’ actions to implement prior audit
                              recommendations, where appropriate, throughout this report.

Recommendation 30

                              Continue the increased diligence for achieving management decision and
                              final action on the remaining prior recommendations. In addition, apply this
                              increased diligence to future recommendations to ensure timeframes are met.

79
     Implementation of HACCP, Audit Report No. 24001-03-At, June 2000.
USDA/OIG-A/24601-07-Hy                                                                             Page 61
                               Agency Response.

                               In the response to the draft report, dated November 26, 2007, FSIS agreed to
                               continue its expedited efforts to resolve and achieve final action (close) on
                               OIG recommendations. FSIS notes that since September 2007, it has closed
                               an additional 20 recommendations and requested closure for 2 more.
                               Additionally, the Program Evaluation and Improvement Staff (PEIS) in
                               FSIS-OPEER, which serves as the agency's liaison to OIG and the
                               Government Accountability Office, is implementing a new system to notify
                               FSIS programs monthly about their obligations to respond to and take final
                               action on OIG recommendations, to track the results, and to produce a variety
                               of reports for FSIS management and USDA’s Office of the Chief Financial
                               Officer. PEIS will add the maintenance of this system to its own management
                               controls. PEIS will have the new system in place and will have amended its
                               management controls by February 1, 2008 (see Exhibit I).

                               OIG Position.

                               We accept FSIS’ management decision.


Finding 8                      Inspection Personnel Did Not Document Their Review of
                               Establishment Test Results

                               At the 15 establishments visited, FSIS inspection personnel did not document
                               that they were reviewing the results of establishment pathogen testing on at
                               least a weekly basis. IPPS reviews of inspectors conducted prior to our site
                               visits did not specifically identify this because FSIS personnel were not
                               required to document their reviews of establishment testing. Documenting
                               that inspection personnel review establishment testing on at least a weekly
                               basis assists in validating that food safety concerns that require additional
                               followup are recognized in a timely manner.

                               In a prior audit, 80 we concluded that if FSIS personnel had reviewed and
                               analyzed all test results at the establishment, the progressive increase in
                               positive E. coli O157:H7 results could have been noted and acted upon by
                               FSIS. In response, FSIS instructed 81 inspection personnel to review the
                               results of any testing that may have an impact on the establishment’s hazard
                               analysis on at least a weekly basis.

Recommendation 31

                               Develop and implement requirements for inspection personnel to document
                               their reviews of establishment testing results. At a minimum, the inspection
80
     Oversight of Production Process and Recall at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
81
     FSIS Directive 5000.2, Review of Establishment Data by Inspection Program Personnel, dated March 31, 2004.
USDA/OIG-A/24601-07-Hy                                                                                        Page 62
                       personnel should document when they reviewed the test results, the type(s) of
                       results they looked at (E. coli O157:H7, Salmonella, etc.) and the time period
                       reviewed.

                       Agency Response.

                       In the response to the draft report, dated November 26, 2007, FSIS agreed to
                       provide instructions to inspection program personnel concerning which types
                       of industry data they should review for which types of products. They will
                       also provide a work method for reviewing the data, for example trends over
                       time, and also describe documentation procedures to track the specific data,
                       and time window, in which it was reviewed (see Exhibit I).

                       In the supplemental response to the draft report, dated November 30, 2007,
                       FSIS agreed, before the high prevalence season for E. coli O157:H7 (i.e.,
                       prior to April 2008), to either issue a new FSIS Directive or a new FSIS
                       Notice specific to E. coli O157:H7; and by July 2008, for Lm in product
                       subject to testing under 9 Code of Federal Regulations (C.F.R.) 430, to either
                       issue a new FSIS Directive or a new FSIS Notice. FSIS will also address
                       other test results (e.g., zero tolerance, generic E. coli, Salmonella) by
                       September 30, 2008 (see Exhibit J).

                       OIG Position.

                       We accept FSIS’ management decision.

Recommendation 32

                       Ensure that the inspection personnel’s reviews of establishment testing are
                       periodically verified by responsible supervisory officials and noncompliance
                       is specifically identified in IPPS.

                       Agency Response.

                       In the response to the draft report, dated November 26, 2007, FSIS agreed to
                       add a sub-element to the IPPS form to capture this responsibility. This new
                       sub-element will be available for use in May 2008. FSIS also will revise
                       instructions to inspection program personnel concerning when they should
                       alert their supervisor that trends indicate that the establishment may not be
                       responding appropriately to a trend of increasing positive pathogen test
                       results. In addition, FSIS will include instructions for how supervisors,
                       including district office personnel, should respond to such information from
                       inspection program personnel. Scheduling of food safety assessments may be
                       part of the district office response (see Exhibit I).

                    In the supplemental response to the draft report, dated November 30, 2007,
                    FSIS agreed, before the high prevalence season for E. coli O157:H7 (i.e.,
                    prior to April 2008), to either issue a new FSIS Directive or a new FSIS
USDA/OIG-A/24601-07-Hy                                                                Page 63
                             Notice specific to E. coli O157:H7; and by July 2008, for Lm in product
                             subject to testing under 9 C.F.R. 430, to either issue a new FSIS Directive or
                             a new FSIS Notice. FSIS will also address other test results (e.g., zero
                             tolerance, generic E. coli, Salmonella) by September 30, 2008 (see Exhibit J).

                             OIG Position.

                             We accept FSIS’ management decision.


Finding 9                    FSIS Needs to Provide Guidance on Progressive Enforcement
                             Actions

                             FSIS inspection personnel did not always follow instructions 82 and link NRs
                             identifying recurring sanitary deficiencies. However, even when NRs were
                             linked, FSIS inspection personnel did not have guidance on when to take
                             further enforcement actions when addressing repetitive noncompliance
                             violations. This occurred because FSIS had not issued the necessary criteria
                             for evaluating repetitive noncompliance violations to establish when further
                             enforcement action must be taken as recommended and agreed to in prior
                             OIG audit reports. 83 FSIS personnel also cited the staffs’ lack of sufficient
                             expertise or supervision to determine when to link NRs indicating that a trend
                             is developing. As a result, there is reduced assurance of FSIS personnel
                             effectively identifying food hazards caused by unsanitary practices. Linkage
                             of related NRs and associated evaluation criteria would provide a basis for
                             determining when an establishment’s corrective actions were inadequate and
                             when additional enforcement actions should be initiated.

                             In the months preceding large recalls by two establishments that produced
                             ground beef products potentially contaminated with E. coli O157:H7, FSIS
                             inspection personnel issued multiple NRs for sanitary deficiencies. 84 At
                             United Food Group LLC (Establishment No. 1241), inspection personnel did
                             not follow instructions to link the deficiencies noted on five separate NRs. At
                             Topps Meat Company LLC (Establishment No. 9748), inspection personnel
                             linked the recurring deficiencies in eight NRs, and on six occasions rejected
                             the non-compliant equipment (i.e., FSIS action that prevents the
                             establishment from using equipment in production). Stronger enforcement
                             actions were not taken due to the lack of guidance. As a result of these
                             recalls, FSIS should reassess the effectiveness of training programs for
                             inspection personnel and frontline supervisors and revise these programs, as
                             appropriate. At a minimum, refresher training should be provided to


82
   FSIS Directive 5000.1, Verifying an Establishment’s Food Safety System, dated July 18, 2006.
83
   Implementation of HACCP, Audit Report No. 24001-03-At, June 2000 and Oversight of Production Process and Recall
   at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
84
   We did not evaluate what FSIS processes may have broken down for these recalls because FSIS’ internal investigations
   were still in process at the end of our fieldwork.
USDA/OIG-A/24601-07-Hy                                                                                       Page 64
                                 inspection personnel and frontline supervisors assigned to United Food
                                 Group LLC and Topps Meat Company LLC.

United Food                      In the three months prior to the recall of approximately 5.7 million pounds of
Group, LLC                       fresh and frozen ground beef products by United Food Group LLC, FSIS
Establishment                    personnel issued 5 separate NRs with the same cause. However, none of the
No. 1241                         five were linked with a previous NR. For example, on March 27, 2007, when
                                 performing a review of the plant’s pre-operational sanitary procedures, the
                                 FSIS inspector noticed a piece of meat/fat in a blender. The plant cleaned the
                                 blender and stated that an official training session was planned for March 30,
                                 2007. On April 19, 2007, a similar situation was reported with several small
                                 pieces of fat particle beneath a stacker. Again, on April 27, May 3, and May
                                 29, FSIS inspectors generated NRs for observation of meat or fat particles on
                                 product contact surfaces during pre-operational sanitation reviews.

                                 Using these repetitive violations as an example, we asked FSIS officials what
                                 threshold of noncompliance needed to be reached before an inspector would
                                 be required to write an NR questioning the establishment’s SSOPs’ ability to
                                 provide sanitary food contact surfaces. The official stated that, in his view,
                                 the average inspector did not have the technical expertise to develop that type
                                 of NR because he/she lacked sufficient training and expertise. Additionally,
                                 he was not sure that frontline supervisors had sufficient expertise either.
                                 Rather, he thought it would require the technical expertise of an EIAO to
                                 develop the type of NR that would support an enforcement action.

 Topps Meat                      In the 10 months prior to the recall of approximately 21.7 million pounds of
 Company LLC                     frozen ground beef products by Topps Meat Company LLC, FSIS inspection
 Establishment                   personnel issued 8 separate NRs with the same violations. The NRs described
 No. 9748                        equipment with meat/fat particles/residue from the prior shift or prior day’s
                                 production that were noted during FSIS’ pre-operational sanitation review.
                                 FSIS inspection personnel linked six of the NRs citing previous NRs with
                                 similar violations. In all six instances, FSIS initiated the required regulatory
                                 control action to reject the non-compliant equipment but did not initiate
                                 stronger enforcement actions. We determined that FSIS directives were not
                                 clear on when inspection personnel should initiate progressive enforcement
                                 actions beyond retention of product (e.g., withholding marks of inspection or
                                 suspension).

                                 OIG recommended additional guidance in separate reports issued in 2000 and
                                 2003. 85 In September 2005, FSIS responded that they were revising FSIS
                                 Directive 5000.1 to contain additional criteria to specifically use in making
                                 decisions on repetitive noncompliance violations. To date, FSIS has not
                                 issued these additional criteria.



   85
        Implementation of HACCP, Audit Report No. 24001-03-At, June 2000 and Oversight of Production Process and Recall
        at ConAgra Plant, Audit Report No. 24601-02-KC, September 2003.
   USDA/OIG-A/24601-07-Hy                                                                                     Page 65
Recommendation 33

                    Expedite the development of the specific criteria to inspection personnel that
                    provide a basis for establishing when corrective actions are inadequate and
                    appropriate enforcement actions should be initiated for repetitive
                    deficiencies. The criteria should also define when progressive enforcement
                    actions should be taken.

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS agreed to
                    revise Directive 5000.1 to include additional instructions concerning linking
                    NRs and initiating enforcement actions. The revised directive will provide for
                    more consistent and coordinated action if noncompliance is not corrected,
                    persists, or recurs. FSIS intends to issue the revised directive in May 2008. In
                    addition to a revision of Directive 5000.1, more focus will be given to the
                    section in the food safety regulatory essentials training for linking of NRs and
                    evaluating corrective actions (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.
Recommendation 34

                    Reassess the effectiveness of training programs for inspection personnel and
                    frontline supervisors and revise the programs, as appropriate.

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS agreed to
                    conduct a comprehensive review of the effectiveness of its training programs
                    for inspection personnel and frontline supervisors and revise the programs as
                    appropriate. FSIS will be conducting IPPS related activities or surveys of
                    inspection program personnel and their supervisors following training to
                    verify that inspectors are performing key job duties as instructed in FSIS
                    policies and training. FSIS also anticipates developing further refresher
                    training to reinforce inspection duties. FSIS expects to complete the
                    comprehensive review and to initiate the revision of its training programs by
                    September 2008 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.




USDA/OIG-A/24601-07-Hy                                                                     Page 66
Recommendation 35

                    Provide refresher training, at a minimum, to the inspection personnel and
                    frontline supervisors assigned to the establishments with the recalls (i.e.,
                    United Food Group LLC and Topps Meat Company LLC).

                    Agency Response.

                    In the response to the draft report, dated November 26, 2007, FSIS detailed
                    the retraining of personnel at Topps and United Food Group completed from
                    October to December 2007 (see Exhibit I).

                    OIG Position.

                    We accept FSIS’ management decision.




USDA/OIG-A/24601-07-Hy                                                                  Page 67
Scope and Methodology
                   We performed our audit at FSIS Headquarters in Washington, D.C. and at
                   selected FSIS district offices and meat and poultry processing establishments
                   between June and October 2007. To accomplish our objectives, we
                   interviewed appropriate FSIS officials, examined pertinent documentation,
                   and reviewed applicable policies and procedures for the agency’s plan for
                   implementing risk-based inspection at meat and poultry processing
                   establishments.

                   FSIS Headquarters and District Offices

                   At FSIS Headquarters, we reviewed the responsibilities of the following
                   offices as they related to risk-based inspection.

                    •    Program Evaluation, Enforcement and Review—assesses FSIS program
                         functions and operations
                    •    Field Operations—manages the national program of inspection and
                         enforcement activities
                    •    Policy, Program, and Employee Development—develops and makes
                         recommendations concerning all domestic policy
                    •    Food Defense and Emergency Response—prepares, prevents, and
                         coordinates a response to intentional or suspected deliberate acts and
                         major events threatening the U.S. food supply
                    •    Public Health and Science—provides scientific analysis, advice, data,
                         and recommendations regarding matters involving public health and
                         science that are of concern to FSIS

                   Our reviews included an analysis of FSIS’ data to support the development
                   and design of risk-based inspection, food safety assessments, FSIS’ data
                   management, and AssuranceNet. We also assessed FSIS’ implementation of
                   prior OIG audit recommendations related to the scope of this audit.

                   Our analysis of FSIS’ data to support the development of risk-based
                   inspection and establishments’ risk rankings was limited to data covering
                   plant operations from October 1, 2005 through September 30, 2006.
                   According to FSIS officials, the agency calculated risk rankings only once
                   and did not update its assessments since the risk-based inspection program
                   was deferred due to Public law 110-028. Therefore, OIG was unable to
                   determine the reasonableness and relevance of FSIS data to support the
                   design of risk-based inspection, as requested by Congress.

                   At the district offices, we further evaluated the data supporting the risk-based
                   inspection formula and FSIS’ procedures for conducting food safety
                   assessments. In addition, we reviewed the responsibilities of the district


USDA/OIG-A/24601-07-Hy                                                                    Page 68
                               managers, deputy district mangers, district analysts, and other district
                               personnel for using management reports and AssuranceNet.

                               We performed audit work at the following five FSIS district offices. They
                               were selected because they oversee almost 50 percent of the Federally
                               inspected meat and poultry processing establishments in the United States.

                               •    Alameda, California
                               •    Albany, New York
                               •    Chicago, Illinois
                               •    Philadelphia, Pennsylvania
                               •    Dallas, Texas

                               During our initial audit fieldwork, we also visited the FSIS district offices in
                               Beltsville, Maryland; Lawrence, Kansas; and Madison, Wisconsin to
                               familiarize ourselves with district office procedures.

                               Selected Processing Establishments

                               To further assess the development of risk-based inspection, we conducted site
                               visits at 15 of the approximately 2,700 processing establishments that are
                               inspected by personnel from the 5 district offices selected for analysis.86 The
                               15 establishments are listed in Exhibit H. We selected these establishments
                               using data FSIS compiled for the pilot program for risk-based inspection.
                               While visiting these establishments, we conducted a tour of the operations
                               and held discussions with plant officials, FSIS front-line supervisors, and
                               FSIS inspectors to obtain an understanding of their responsibilities and to
                               become familiar with the scope of the establishments’ operations. We also
                               reviewed the establishments’ volume data, NRs, and food safety assessments
                               completed by FSIS EIAOs.

                               Establishments with Food Safety Recalls

                               We also reviewed certain data and information for two establishments with
                               large recalls of ground beef product potentially contaminated with E. coli
                               O157:H7: (1) United Food Group, LLC (Establishment No. 1241) and
                               (2) Topps Meat Company, LLC (Establishment No. 9748). However, we did
                               not evaluate what FSIS processes may have broken down for these recalls
                               because FSIS’ internal investigations were still in process at the end of our
                               fieldwork.

                               United Food Group, LLC recalled approximately 5.7 million pounds of fresh
                               and frozen ground beef products in June 2007. Based on the timing of this
                               recall, this establishment was included in our sample of 15 establishments to
                               visit. Accordingly, while visiting this establishment, we conducted a tour of
86
     As of June 2007, FSIS provided inspection services to approximately 5,400 meat and poultry processing establishments
     nationwide.
USDA/OIG-A/24601-07-Hy                                                                                         Page 69
                   the operations and held discussions with plant officials, FSIS front-line
                   supervisors, and FSIS inspectors to obtain an understanding of their
                   responsibilities and to become familiar with the scope of the establishment’s
                   operations. We also reviewed the establishment’s volume data, NRs, and
                   food safety assessments completed by FSIS’ EIAOs before and after the
                   recall.

                   We added Topps Meat Company LLC to our review subsequent to its recall
                   of approximately 21.7 million pounds of frozen ground beef products in
                   October 2007. We did not visit this establishment due to FSIS’ ongoing
                   investigation. We reviewed information on NRs issued to the establishment
                   as well as the food safety assessments completed by FSIS EIAOs before and
                   after the recall.

                   We conducted this performance audit in accordance with generally accepted
                   government auditing standards. Those standards require that we plan and
                   perform the audit to obtain sufficient, appropriate evidence to provide a
                   reasonable basis for our findings and conclusions based on our audit
                   objectives. We believe that the evidence obtained provides a reasonable basis
                   for our findings and conclusions based on our audit objectives.




USDA/OIG-A/24601-07-Hy                                                                 Page 70
Exhibit A –Public Health Information System
                                                                               Exhibit A – Page 1 of 3

                   FSIS is re-aligning its systems into the Public Health Information
                   Consolidation Project (PHICP) to better integrate and consolidate its
                   numerous applications that collect information regarding its primary
                   activities of ensuring the safety of meat, poultry, and egg products. The FSIS
                   PHICP will use a web-based system design to augment and replace current IT
                   systems used to support mission critical FSIS business functions such as
                   inspection, surveillance, auditing, enforcement, scheduling, modeling and
                   analysis. Some of the FSIS mission critical applications contained in PHICP
                   include the Public Health Information System (PHIS), AssuranceNet, and
                   laboratory systems. The major business functions\modules of PHIS include
                   Domestic Products, Imported Products, Exported Products, and Modeling and
                   Analysis.

                   PHIS is being developed, in part, to predict hazards and vulnerabilities,
                   communicate or report analysis results, and target resources to prevent or
                   mitigate the risk of food-borne illness and threats to the food supply.
                   Another planned key benefit of PHIS is the ability to exchange data with key
                   external stakeholders – organizations that FSIS has no current electronic
                   connection with, but with which future interfaces are essential in order for the
                   agency to satisfactorily perform its mission and to operate within the law.
                   Such organizations would include the Department of Homeland Security,
                   Customs and Border Protection.

                   Other key goals of PHIS are to build a Domestic Inspection Module for use
                   by field inspectors and headquarters staff and predictive models to analyze
                   real time data.      The domestic inspection module is targeted for
                   implementation in June 2008; a predictive analytics and modeling component
                   will be deployed around the same time.

 Inspection        The functions identified for the domestic inspection module include:
 Functions for
 the Domestic       •    In-plant Inspection Activity;
 Inspection
 Module             •    Food safety assessments;

                    •    Laboratory Sample Scheduling;

                    •    In-Plant data and data from other public health systems and external
                         information sources;

                    •    Reporting - including the ability to feed data from the Domestic
                         Inspection Module transaction system to the Corporate Data Warehouse;
                         and
USDA/OIG-A/24601-07-Hy                                                                      Page 71
Exhibit A – Public Health Information System
                                                                             Exhibit A – Page 2 of 3


                    •    Integration with Predictive Analytics and Modeling and other FSIS
                         transaction database systems (including those needed to conduct
                         domestic inspection).

                   Primary goals for the system are to:

                    •    Improve timeliness of data collection and analysis by providing an easy
                         to use application and accessible tools;

                    •    Continually improve the capacity of FSIS to respond to and implement
                         policy changes;

                    •    Incorporate risk based procedures, including predictive modeling, into
                         the business processes for inspection operations;

                    •    Enhance the capability of FSIS to anticipate hazards by thoroughly
                         analyzing data obtained from FSIS’ regulatory sampling and other data
                         sources; and

                    •    Enhance the capability of FSIS to respond in a timely manner to
                         emerging or existing threats to public health.

 Predictive        PHIS is being developed to use predictive models to analyze near real time
 Modeling and      data from FSIS and other Federal, State, and local agencies and deliver
 Analysis          critical reports to Agency program personnel and managers. The Predictive
                   Analytics and Modeling module is intended to help FSIS analyze relevant
                   public health and other data to achieve its mission. The module will
                   encompass information/data generated by FSIS, as well as other agencies
                   (such as USDA’s APHIS) and departments. Specifically, it will combine data
                   from inspection, pathogen sampling, surveillance, meat and poultry product
                   importing and exporting, disease, consumer complaints, and other food safety
                   and food defense sectors to perform automated predictive analysis to more
                   efficiently and effectively eliminate or reduce intentional and unintentional
                   food-borne illness.




USDA/OIG-A/24601-07-Hy                                                                   Page 72
Exhibit A – Public Health Information System
                                                                              Exhibit A – Page 3 of 3


                   The module will use existing FSIS and USDA systems that support its public
                   health infrastructure, such as the FSIS data warehouse (the repository that
                   stores FSIS data in a single accessible location) and AssuranceNet (the tool
                   FSIS uses to enter and retrieve data, and create standard and custom reports,
                   and report management control performance data). It will also incorporate
                   self-learning algorithms into the system to allow FSIS data analysis to evolve
                   as more information is gathered; provide a mechanism that could
                   subsequently integrate FSIS data with APHIS data for rapid recognition and
                   containment of animal diseases that could impact public health (e.g., Bovine
                   Spongiform Encephalopathy, Avian Influenza); and develop a mechanism to
                   link FSIS data with the Department of Homeland Security’s National
                   Biosurveillance Integration System once developed.




USDA/OIG-A/24601-07-Hy                                                                    Page 73
Exhibit B        –Prior OIG Audit Reports with Recommendations that Impact
the Development of Risk-Based Inspection at Processing Establishments
                                                                         Exhibit B – Page 1 of 1



Audit Report Number                           Title                         Date Issued
    24001-03-At       Implementation of the Hazard Analysis and             June 2000
                      Critical Control Point System
   24601-01-Ch        Laboratory Testing of Meat and Poultry Products       June 2000
   24601-01-FM        Review of FSIS Inspector Staffing Shortages and       April 2001
                      Anti-Deficiency Act Violations
   24601-02-KC        Food Safety and Inspection Service Oversight of    September 2003
                      Production Process and Recall at ConAgra Plant
   24601-02-Hy        Food Safety and Inspection Service Oversight of        June 2004
                      the Listeria Outbreak in the Northeastern United
                      States
    24001-04-At       Food Safety and Inspection Service Followup        September 2004
                      Audit on the Inspector General’s Food Safety
                      Initiative of Fiscal Year 2000
   24601-03-Ch        Food Safety and Inspection Service Use of Food     September 2004
                      Safety Information Systems
   24501-01-FM        Food Safety and Inspection Service Application     November 2004
                      Controls – Performance Based Inspection System
    24601-05-At       Hazard Analysis and Critical Control Point             June 2005
                      Implementation at Very Small Plants
   24601-06-Ch        Food Safety and Inspection Service’s In-Plant         March 2006
                      Performance System
   24601-07-Ch        Review of Pathogen Reduction Enforcement           September 2006
                      Program Sampling Procedures




USDA/OIG-A/24601-07-Hy                                                                       Page 74
Exhibit C –FSIS Response to Issues Regarding Food Safety Assessments
                                                      Exhibit C – Page 1 of 4




USDA/OIG-A/24601-07-Hy                                                    Page 75
Exhibit C – FSIS Response to Issues Regarding Food Safety Assessments
                                                           Exhibit C – Page 2 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 76
Exhibit C – FSIS Response to Issues Regarding Food Safety Assessments
                                                           Exhibit C – Page 3 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 77
Exhibit C – FSIS Response to Issues Regarding Food Safety Assessments
                                                           Exhibit C – Page 4 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 78
USDA/OIG-A/24601-07-Hy   Page 79
USDA/OIG-A/24601-07-Hy   Page 80
USDA/OIG-A/24601-07-Hy   Page 81
USDA/OIG-A/24601-07-Hy   Page 82
USDA/OIG-A/24601-07-Hy   Page 83
USDA/OIG-A/24601-07-Hy   Page 84
Exhibit D – FSIS Response to Issues Regarding IT Security
                                                            Exhibit D – Page 7 of 7




USDA/OIG-A/24601-07-Hy                                                  Page 85
Exhibit E        –FSIS Response to Issues Regarding Application Controls for
the Performance Based Inspection System
                                                             Exhibit E – Page 1 of 6




USDA/OIG-A/24601-07-Hy                                                           Page 86
Exhibit E – FSIS Response to Issues Regarding Application Controls for the
Performance Based Inspection System
                                                               Exhibit E – Page 2 of 6




USDA/OIG-A/24601-07-Hy                                                     Page 87
Exhibit E – FSIS Response to Issues Regarding Application Controls for the
Performance Based Inspection System
                                                               Exhibit E – Page 3 of 6




USDA/OIG-A/24601-07-Hy                                                     Page 88
Exhibit E – FSIS Response to Issues Regarding Application Controls for the
Performance Based Inspection System
                                                               Exhibit E – Page 4 of 6




USDA/OIG-A/24601-07-Hy                                                     Page 89
Exhibit E – FSIS Response to Issues Regarding Application Controls for the
Performance Based Inspection System
                                                               Exhibit E – Page 5 of 6




USDA/OIG-A/24601-07-Hy                                                     Page 90
Exhibit E – FSIS Response to Issues Regarding Application Controls for the
Performance Based Inspection System
                                                               Exhibit E – Page 6 of 6




USDA/OIG-A/24601-07-Hy                                                     Page 91
Exhibit F           – FSIS    Response   to   Issues   Regarding   Data   Management
Infrastructure and Analyses
                                                                      Exhibit F – Page 1 of 4




USDA/OIG-A/24601-07-Hy                                                             Page 92
Exhibit F – FSIS Response to Issues Regarding Data Management
Infrastructure and Analyses
                                                           Exhibit F – Page 2 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 93
Exhibit F – FSIS Response to Issues Regarding Data Management
Infrastructure and Analyses
                                                           Exhibit F – Page 3 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 94
Exhibit F – FSIS Response to Issues Regarding Data Management
Infrastructure and Analyses
                                                           Exhibit F – Page 4 of 4




USDA/OIG-A/24601-07-Hy                                                 Page 95
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 1 of 10




USDA/OIG-A/24601-07-Hy                                                   Page 96
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 2 of 10




USDA/OIG-A/24601-07-Hy                                                  Page 97
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 3 of 10




USDA/OIG-A/24601-07-Hy                                                  Page 98
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 4 of 10




USDA/OIG-A/24601-07-Hy                                                  Page 99
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 5 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 100
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 6 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 101
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 7 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 102
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 8 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 103
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                           Exhibit G – Page 9 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 104
Exhibit G – FSIS Response to Issues Regarding Management Control Structure
                                                          Exhibit G – Page 10 of 10




USDA/OIG-A/24601-07-Hy                                                 Page 105
Exhibit H– Selected Processing Establishments
                                                                     Exhibit H – Page 1 of 1


               Establishment Name                     Location
                   Thumann, Inc.               Carlstadt, New Jersey
                  E.G. Food, Inc.               Brooklyn, New York
           Sandridge Food Corporation               Medina, Ohio
               Plains Meat Co, LTD                Lubbock, Texas
             United Food Group, LLC              Vernon, California
                Sara Lee Foods U.S.               Chicago, Illinois
           Owens Country Sausage, Inc.           Richardson, Texas
           American Foodservice Corp.       King of Prussia, Pennsylvania
             Moy’s Meat Market, Inc.            Brooklyn, New York
          A to Z Kosher Meat Prod’s, Inc.       Brooklyn, New York
                Bierig Brothers, Inc.          Vineland, New Jersey
             Trinity Valley Foods, Inc.             Irving, Texas
                  D&S Meats, Inc.                Oak Forest, Illinois
                 Kohler Freda, LLC           Philadelphia, Pennsylvania
            Texas Best Beef Jerky, Inc.         Wichita Falls, Texas




USDA/OIG-A/24601-07-Hy                                                          Page 106
Exhibit I– Agency Response to the Draft Report
                                                 Exhibit I – Page 1 of 18




USDA/OIG-A/24601-07-Hy                                      Page 107
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 2 of 18




USDA/OIG-A/24601-07-Hy                                       Page 108
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 3 of 18




USDA/OIG-A/24601-07-Hy                                       Page 109
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 4 of 18




USDA/OIG-A/24601-07-Hy                                       Page 110
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 5 of 18




USDA/OIG-A/24601-07-Hy                                       Page 111
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 6 of 18




USDA/OIG-A/24601-07-Hy                                       Page 112
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 7 of 18




USDA/OIG-A/24601-07-Hy                                       Page 113
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 8 of 18




USDA/OIG-A/24601-07-Hy                                       Page 114
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 9 of 18




USDA/OIG-A/24601-07-Hy                                       Page 115
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 10 of 18




USDA/OIG-A/24601-07-Hy                                         Page 116
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 11 of 18




USDA/OIG-A/24601-07-Hy                                         Page 117
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 12 of 18




USDA/OIG-A/24601-07-Hy                                         Page 118
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 13 of 18




USDA/OIG-A/24601-07-Hy                                         Page 119
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 14 of 18




USDA/OIG-A/24601-07-Hy                                         Page 120
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 15 of 18




USDA/OIG-A/24601-07-Hy                                         Page 121
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 16 of 18




USDA/OIG-A/24601-07-Hy                                         Page 122
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 17 of 18




USDA/OIG-A/24601-07-Hy                                         Page 123
Exhibit I – Agency Response to the Draft Report
                                                  Exhibit I – Page 18 of 18




USDA/OIG-A/24601-07-Hy                                         Page 124
Exhibit J– Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 1 of 6




USDA/OIG-A/24601-07-Hy                                                Page 125
Exhibit J – Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 2 of 6




USDA/OIG-A/24601-07-Hy                                                Page 126
Exhibit J – Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 3 of 6




USDA/OIG-A/24601-07-Hy                                                Page 127
Exhibit J – Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 4 of 6




USDA/OIG-A/24601-07-Hy                                                Page 128
Exhibit J – Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 5 of 6




USDA/OIG-A/24601-07-Hy                                                Page 129
Exhibit J – Supplemental Information in Response to Seven Recommendations
                                                            Exhibit I – Page 6 of 6




USDA/OIG-A/24601-07-Hy                                                Page 130
